	
Office	of	Inspector	Ge
                     eneral


February
       y 6, 2014

MEMORA
     ANDUM

TO:       	          USAID
                         D/Afghanista
                                    an Mission Director, Willliam Hammink

FROM: 	              Office
                          e of Inspecto
                                      or General/Affghanistan D irector, Jam
                                                                           mes C. Charrlifue /s/

     CT: 	
SUBJEC               Review of USAID/Afghanistann’s Electorall Assistance Program
                     (Repo
                         ort No. F-306
                                     6-14-001-S)

This memmorandum transmits ou
                            ur final reporrt on the subject review
                                                                 w. In finalizin
                                                                               ng the reporrt, we
considere
        ed your com
                  mments on th
                             he review recommendattions and have included those comm      ments
       ndix II.
in Appen

The report contains s ten recom mmendation  ns to assistt USAID/Afg  ghanistan in improving
                                                                                          g the
managemment of US  SAID/Afghanistan’s Elec  ctoral Assisttance Progrram. We accknowledge your
managemment decisio ons on all thhe recomme  endations aand final acttion on Recommendatioons 1
and 10. Please prov vide the Audit Performa  ance and C ompliance Division witth the necesssary
documenntation to achieve final action on the
                                            e other recom
                                                        mmendationss when avaiilable.

Thank yo
       ou for the support and as
                               ssistance prrovided on th
                                                       his assignme
                                                                  ent.




U.S. Agency for International Development
Office of Insp
             pector General
U.S. Embass   sy
Kabul, Afghanistan
http://oig.usaiid.gov
SUMMARY 

Afghanistan’s next presidential and provincial council elections are scheduled for April 5, 2014.
These elections are widely regarded as a watershed event in the country’s future development.
The U.S. Government believes that Afghanistan’s ability to sustain governance, development,
and security gains after 2014 will largely depend on a successful presidential election and a
smooth transfer of power.1

The Government of the Islamic Republic of Afghanistan and members of the international
community have agreed that credible and inclusive elections are essential to a secure, just,
stable, and prosperous Afghanistan. Consistent with this recognition, the government has
committed to:

          conduct credible, inclusive, and transparent Presidential and Parliamentary
          elections in 2014 and 2015 according to the Afghan Constitution, in which eligible
          Afghan citizens, men and women, have the opportunity to participate freely
          without internal or external interference in accordance with the law.2

In support of this goal, the U.S. Government provides assistance to political party strengthening
activities and electoral reform efforts on the part of the Independent Election Commission (IEC)
and civil society. In addition to this support, USAID has sponsored efforts to improve
Afghanistan’s voter registry, promoted civic coalition building, and encouraged civic education
and advocacy efforts in Afghanistan provinces and districts. USAID projects in this area are
designed to develop the capacity of Afghan electoral institutions and support citizen participation
so that elections reflect Afghan leadership and choices.

As of June 30, 2013, USAID/Afghanistan had obligated $217.1 million and disbursed
$208.4 million for electoral assistance activities. At the start of this review, USAID’s support for
Afghan elections took the form of the four programs shown in the following table.

          Reviewed USAID-Funded Electoral Assistance Programs as of June 30, 2013

                                                                                           Implementation
     Program Name and Objective                    Implementer             Funding
                                                                                               Period
Enhancing Legal and Electoral                   United Nations          $58.5 million in   May 2009 –
Capacity for Tomorrow – Phase II                Development             commitments*       Dec. 2015
(ELECT II) Project – Strengthen the             Programme (UNDP)        to a multidonor
ability of the Afghan Government to                                     fund with
conduct credible elections by building                                  $58.5 million in
the institutional strength and capacity of                              obligations
Afghanistan’s Independent Election                                      and
Commission, by building on the                                          $57.6 million in
foundation for the voter registry, and                                  disbursements
enhancing the electoral dispute
resolution mechanism

1
    U.S. Department of Defense, Progress Toward Security and Stability in Afghanistan, July 2013.
2
    Tokyo Mutual Accountability Framework, July 8, 2012.



                                                                                                        1
                                                                                           Implementation
   Program Name and Objective                     Implementer             Funding
                                                                                               Period
Support for Increased Electoral               Consortium for            $91.5 million      Sept. 2008 –
Participation in Afghanistan (SIEP)           Electoral and             program with       Sept. 2013
Program – Strengthen political                Political Processes       $87.5 million in
stakeholders’ ability to articulate,          Support†                  obligations
organize, and compete in elections, as                                  and $86.1
well as increase public awareness and                                   million in
oversight of the electoral process                                      disbursements

Afghanistan Electoral Reform and              Democracy                 $29.2 million      July 2009 –
Civil Advocacy (AERCA) Program –              International             program with       June 2014
Develop capacity and facilitate an                                      $29.2 million in
Afghan-led electoral reform dialogue to                                 obligations
strengthen Afghan democracy and foster                                  and $25.6
innovations in governance                                               million in
                                                                        disbursements

Afghanistan Parliamentary                     Center for                $39.3 million      Sept. 2004 –
Assistance Program – Advance the              International             program with       March 2013
Afghan Parliament’s institutional,            Development,              $39.1 million in
technical, and political development          State University of       obligations
                                              New York, Albany          and $38.8
                                                                        million in
                                                                        disbursements

* The ELECT II project implemented by UNDP is funded through a multidonor fund. Although USAID has
been the largest contributor to the project fund, it cannot make unilateral adjustments to the project. After
fieldwork concluded, USAID/Afghanistan announced an additional $55 million in commitments for
electoral assistance to Afghanistan, to bring this figure to $113.5 million.
†
   Members of the consortium are the International Foundation for Electoral Systems, the International
Republican Institute, and the National Democratic Institute.

During review fieldwork, USAID established a successor program to the Afghanistan
Parliamentary Assistance Program. The 5-year, $23.5 million Assistance to Legislative Bodies
in Afghanistan Program, implemented by DAI, is designed to enable the Afghan Parliament to
operate independently and provide effective oversight. Meanwhile, the mission opened the
procurement process for another election-related program. The 3-year, $18 million
Strengthening Political Entities and Civil Society (SPECS) Project was awarded in July 2013. It
is designed to strengthen election and political processes and enhance Afghanistan’s
democratic system.

The Office of Inspector General’s (OIG’s) Afghanistan Country Office conducted this review to
determine whether USAID assistance:

1. 	Strengthened the ability of Afghan institutions and organizations to enable credible,
    inclusive, and transparent presidential and provincial council elections in 2014.




                                                                                                           2
2. 	 Contributed to Afghan solutions to the longer-term issues identified in OIG’s previous audit
     of electoral assistance.3

    The issues previously identified were: 

     approval of an electoral law that received majority support from both chambers of 

       Parliament
     establishment of a permanent electoral complaints commission
     definition of an effective process for appointing independent commissioners to the
       electoral commission and complaints commission 

     reform of Afghanistan’s voting system 

     establishment of a more reliable voter registry 

     transition to a more sustainable elections system 


We reached the following conclusions:

	 USAID assistance has strengthened Afghan institutions’ ability to promote electoral
   credibility, inclusiveness, and transparency (page 6). Assistance has increased the
   preparedness and institutional capacity of Afghanistan’s main election management body,
   the IEC; built Afghan organizations’ research capacity on election-related topics; and trained
   members of political parties and independent candidates to develop and present platforms,
   conduct more effective outreach to potential voters, and better represent their
   constituencies.

	 Plans for electoral support had an important gap and several noteworthy limitations
   (page 10). USAID had not finalized support arrangements for electoral dispute resolution,
   and support for civic outreach and education, electoral observation and monitoring, and
   women’s participation had limitations. In addition, the mission had not developed a
   contingency plan to help address critical, time-sensitive needs that may arise in electoral
   operations.

	 USAID support has contributed to Afghan solutions to longer-term electoral issues outlined
   in OIG’s June 2011 audit of Afghanistan electoral assistance (page 22). USAID-supported
   debate and discussion culminated in the approval of two laws that establish a permanent
   electoral complaints commission and set out a clear process for appointing commissioners
   to oversee the bodies responsible for administering elections and resolving electoral
   disputes.

    Notwithstanding these successes, the provincial council elections to be held in 2014 will
    proceed under a single, nontransferable vote (SNTV) system.4 Under this system,
    candidates may win with a very small percentage of the vote, and elected officials do not
    often represent a majority of voters in their constituencies. Moreover, several significant
    voter registration weaknesses mentioned in our previous report remain and will continue to
    affect the upcoming elections.



3
  USAID OIG, Audit of USAID/Afghanistan’s Support to The Electoral Process and Support for Increased 

Electoral Participation in Afghanistan Programs, Report No. F-306-11-003-P, June 19, 2011. 

4
  Under a single, nontransferable vote system, a voter in a multiseat constituency casts a vote for one

candidate of his or her choice. Seats are allotted to the candidates with the most votes. 




                                                                                                     3
	 Problems jeopardized the sustainability of some USAID-supported activities (page 26). The
   IEC faces funding and personnel problems. Civil society organizations (CSOs) that have
   received USAID assistance face financial limitations that threaten sustainability. And while
   USAID plans to continue support to political parties in Afghanistan, their long-term viability is
   in doubt.

	 Monitoring and reporting weaknesses characterized some aspects of electoral assistance
   (page 29). One member of the consortium implementing the SIEP program did not monitor
   activities properly, and the AERCA program did not provide timely reporting to the mission
   on the progress of its activities.

To address these issues, we recommend that USAID/Afghanistan:

1. 	 Work with international donors to prompt the advertisement and letting of a subcontract to
     address support for the Independent Electoral Complaints Commission in a way that
     mitigates potential ELECT II project conflicts of interest (page 21).

2. 	 Coordinate with the Government of Afghanistan and the international donor community to
     implement a plan for supporting broad-based civic outreach and education with a focus on
     increasing commitment to a genuine electoral process, particularly in predominantly Pashtun
     areas (page 21).

3. 	 Work with international donors to finalize and implement plans for supporting independent
     domestic observer organizations (page 21).

4. 	 Work with the Government of Afghanistan and other donors to identify and help meet targets
     for women in key electoral roles, and implement plans for the recruitment and training of
     needed female poll workers, observers, voter educators, and complaints commission
     personnel, as well as for the training of female candidate agents (page 21).

5. 	 Develop a contingency plan to address critical, time-sensitive electoral support needs that
     may emerge during the current electoral cycle in consultation with the Government of
     Afghanistan and the international donor community (page 22).

6. 	 Reevaluate and document any adjustments to its programming for elections and political
     processes in light of Afghanistan’s continuing use of the SNTV system (page 26).

7. 	Work with other international donors to implement a transition plan for shifting ELECT II
    project assistance to the IEC. The plan should address possible staffing and funding
    limitations so that the organization can operate effectively beyond the current electoral cycle
    (page 29).

8. 	 Assess whether future efforts to promote the financial sustainability of partner CSOs would
     support the objectives of programming for elections and political processes and implement
     corresponding plans as appropriate (page 29).

9. 	 Reevaluate plans for support to political parties, adjust them as appropriate, and document
     any changes (page 29).

10. Work with AERCA program officials to meet the reporting requirements specified in the
    program award and performance management plan (page 31).


                                                                                                  4
Detailed results appear in the following section. Appendix I contains information on the scope
and methodology. Management comments are included in their entirety in Appendix II, and our
evaluation of them is included on page 32. A list of abbreviations used in this report appears in
Appendix III.




                                                                                               5
REVIEW RESULTS
Assistance Has Strengthened Afghan
Institutions’ Ability to Promote
Electoral Credibility, Inclusiveness,
and Transparency
The 2014 presidential elections hold the promise of Afghanistan’s first constitutional transfer of
power. Helping Afghans achieve a peaceful transfer of authority is a high priority for the U.S.
Government.

According to a 2012 survey by The Asia Foundation, more than four-fifths of Afghans support
regular, open, and honest elections for choosing their country’s leaders. Many Afghans perceive
that democracy in their country enhances prospects for peace, security, freedom, and
recognition of rights.5 A recent United Nations (UN) assessment mission to Afghanistan
concluded that there is broad consensus on the need to carry out an election (1) that produces
an outcome generally accepted by Afghans (2) that prioritizes participation and inclusiveness,
(3) for which technical processes are sound and unbiased and are seen as such, and (4) that is
governed by effective and strategic antifraud measures. U.S. support for the process is
consistent with these aims.

The Afghan and U.S. Governments have expressed a shared commitment to work toward

credible, inclusive, and transparent elections in Afghanistan in 2014.6 The U.S. Government

believes that Afghanistan’s ability to sustain governance, development, and security gains after

2014 will depend on a successful presidential election and a smooth transfer of power. Toward

this end, the U.S. Government has taken on a significant role in supporting electoral assistance

to Afghanistan. 


Overall, U.S. electoral assistance is intended to help Afghans meet the goal of credible, 

inclusive, and transparent presidential and provincial council elections in 2014. This aim is 

reflected in USAID/Afghanistan’s mission performance management plan, which included

activities intended to strengthen Afghan elections and support their competitiveness, inclusivity,

and credibility by: 


   Strengthening the Afghan Government’s capacity to effectively administer elections.

   Increasing citizen awareness of the electoral process. 

   Enhancing the democratic political party system.

   Producing elected bodies at all levels that are more representative. 


While Afghans face many significant challenges in meeting these goals, USAID assistance has 

strengthened the ability of Afghan institutions to contribute to the credibility, inclusivity, and


5
  The Asia Foundation, Afghanistan in 2012: A Survey of the Afghan People, 2012.

6
  On July 9, 2013, the U.S. Senate passed a resolution urging the Afghan Government to hold “transparent 

and credible presidential and provincial elections . . . by adhering to internationally accepted democratic

standards, establishing a transparent electoral process, and ensuring security for voters and candidates.”

(U.S. Senate Resolution 151).



                                                                                                         6
transparency of upcoming elections. USAID projects in this area have been structured to help
meet these challenges. Projects are designed to develop the capacity of Afghan electoral
institutions, support civic participation, and culminate in elections that reflect Afghan leadership
and choices.

The following sections describe USAID assistance and its bearing on electoral credibility,
inclusiveness, and transparency in Afghanistan. Standards for these three election elements are
outlined in several international covenants and conventions to which Afghanistan is a party.7

Credibility. Credible elections occur at reasonable intervals. Postponement should be reserved
for extraordinary cases in response to extreme exigencies. Elections should offer real choices to
the electorate and include respect for fundamental rights: secrecy of the ballot; equal suffrage;
and freedoms of assembly, association, movement, opinion, and expression. Credible elections
entail reasonable antifraud measures, security to protect participants in the election and prevent
interference in related political processes, and effective and timely remedy for violations.

The credibility of past Afghan elections has been problematic. Afghanistan has never had an
accurate voter registry. Afghanistan’s voter registry system is based on voter registration cards,
and the existence of millions of duplicate or false voter cards undermines public confidence in
the electoral process. Elections in Afghanistan have not always been held when scheduled, and
election observers have questioned the accuracy of reported results. Previous elections have
been the source of widespread reports of fraud, and large numbers of votes have been voided
by authorities. In Afghanistan’s last nationwide (parliamentary) elections, electoral authorities
annulled 1.5 million votes, representing almost a quarter of votes cast.8 Perhaps because of
these past issues, only slightly more than half of Afghans believe “they can influence
government decisions by participating in political processes” and about a quarter feel “they have
no influence at all.”9

Limited public confidence in key participants in the electoral process further undermines the
credibility of the electoral process. Most Afghans regard corruption as a major problem in all
facets of life and at all levels of government, and surveys have noted low levels of confidence in
Afghan nongovernmental organizations and political parties.10

USAID has supported the credibility of elections by helping develop the capacity of
Afghanistan’s main election management body, the IEC.

   The USAID-supported ELECT II project helped the IEC develop a concept of operations for
    the 2014 elections, schedule required activities in the lead-up to the elections, and plan for
    conducting voter and candidate registration and election activities.




7
   Afghanistan acceded to the International Covenant on Civil and Political Rights on January 24, 1983.

Afghanistan signed onto the UN Convention Against Corruption on February 20, 2004. The Universal 

Declaration of Human Rights was adopted by the UN General Assembly on December 10, 1948, when 

Afghanistan’s delegation voted to adopt the declaration. The United States is also party to these

agreements.

8
  National Democratic Institute, The 2010 Wolesi Jirga Elections in Afghanistan, 2011. 

9
  The Asia Foundation, Afghanistan in 2012. 

10
   Ibid.




                                                                                                    7
	 With other international donors, USAID helped the IEC develop a 5-year strategic plan,
   worked to upgrade security at its provincial offices, and helped it evaluate the implications of
   different legal frameworks for it and for the electoral process.

	   USAID assistance through ELECT II has also supported the IEC’s mapping of polling
     centers to improve logistics and security planning.

	   USAID funded a SIEP program assessment of fraud risks in the elections, and plans for
     mitigating these risks.

USAID assistance has also enhanced the capacity and preparedness of other participants in the
electoral process.

	 The AERCA program worked to build Afghan organizations’ research capacity on election-
   related topics to strengthen the basis for advocacy efforts.

	 The SIEP program provided training to political party members and to independent
   candidates to help them develop and present platforms, conduct more effective outreach to
   potential voters, and better represent their constituencies. As of June 2013, SIEP program
   training for political party representatives had reached more than 2,300 individuals
   according to program reports.

Inclusiveness. Under the International Covenant on Civil and Political Rights, elections and
related political processes are to be characterized by universal freedom to participate, subject to
few, reasonable, and objective restrictions. Citizens’ rights in these processes should include
the freedom to exercise suffrage; the freedom to join, support, and assemble with CSOs and
political parties; the ability to participate in elections as observers and comment on electoral
developments; and the right to compete for office, subject to few, reasonable, and objective
restrictions. These rights are to be upheld with equal treatment without regard to race, color,
sex, language, religion, political or other opinion, national or social origin, property, birth or other
status, or geographic location. Moreover, the Afghan Constitution declares that the nation’s
electoral framework is to provide for general and fair representation for all Afghans.11

Yet achieving electoral inclusiveness is also a major challenge. About one in ten surveyed
Afghans who were eligible to vote in the 2010 parliamentary elections indicated that they were
prevented from doing so.12 Security conditions and staffing and ballot shortages at some polling
centers have limited voter participation in past elections. Because military and police forces
could not secure some areas of the country, 22 percent fewer polling centers were open during
the 2010 elections than originally identified by the IEC.13 Meanwhile, conditions at open polling
locations did not always promote effective expression of suffrage. Elections were marred by
reports of civilians, candidates, election officials, and security personnel being beaten,
kidnapped, and killed at polling centers around the country.



11
   Constitution of Afghanistan (2004), Article 83. 

12
    Democracy International for USAID, Survey on Political Institutions, Elections, and Democracy in

Afghanistan, November 2012. 

13
   IEC, “Finalization of Polling Center List for 2010 Wolesi Jirga Elections,” September 5, 2010; National 

Democratic Institute, The 2010 Wolesi Jirga Elections in Afghanistan, 2011.




                                                                                                          8
Constraints on voter participation have effectively limited the franchise of some segments of the
population. In the 2010 elections, some districts had no polling centers open, and numerous
polling centers were closed in others. Many areas subject to polling center closures and
intimidation by armed groups were located in the south and east of the country. Proportionally
more Pashtuns live in these areas, so it is not surprising that a 2013 survey observed that the
proportion of Pashtuns who reported voting in the 2010 elections was substantially smaller than
that of any other ethnic group.14 Threats against female voters and a shortage of female
searchers at polling centers limited turnout among women.
#

USAID assistance programs have increased Afghan institutions’ ability to promote inclusiveness
in the electoral process. Programs have:

	 Fostered public and civil society engagement in discussions about Afghanistan’s electoral
   system and proposed electoral reforms.

	 Supported voter registration. The ELECT II project has trained IEC personnel in registering
   voters and helped the IEC procure voter registration kits.

	 Sponsored Afghan-led civic education and outreach. According to program reports, civic
   outreach and education activities under the SIEP and AERCA programs reached more than
   2,700 individuals during the first three quarters of fiscal year (FY) 2013; and voter education
   and outreach through radio programming reached more than 10 million Afghans during that
   time.

	 Involved women in the electoral process. The ELECT II project assisted the IEC’s gender
   unit, helped add gender awareness modules to training on voter registration, and supported
   exchanges with religious leaders to persuade them of the importance of women’s
   participation. The SIEP program trained young women and influential female figures to
   engage effectively in political processes and provided support to a major national women’s
   organization for community organizing and advocacy on electoral issues.

	 Engaged youth in political processes. The SIEP program sponsored the development of
   youth wings of political parties, promoted debating skills among university students, and
   fostered the institutional development of a national Afghan youth-focused CSO.

	    Engaged different linguistic and ethnic groups in electoral and political processes. USAID
      projects prepared and disseminated resource materials in multiple languages and offered
      training events in both Dari and Pashto. SIEP cultivated the development of an organization
      representing the interests of the Hazara minority.

Transparency. Transparency refers to openness on electoral laws, plans, processes, and
results, as well as on decisions affecting all these aspects and how the decisions were made.
#

Observers of past elections in Afghanistan have pointed to problems with transparency in
virtually all phases of the electoral cycle. Important features of the electoral process have been
modified by presidential decree in the run-up to elections, changing the ground rules for
contesting the elections. Vetting candidates—and ruling them out—for ties to illegally armed
groups has been slow and lacking in transparency. Criteria for determining the number and

14
     Democracy International for USAID.



                                                                                                9
placement of polling sites have not been clear, some say for political reasons. Finally, the public
has had little information on the processing and adjudication of complaints about electoral
improprieties or the basis for annulling votes.15

USAID assistance activities have promoted transparency in several ways in preparation for
Afghanistan’s 2014 elections.

	 The AERCA and SIEP programs helped promote public consultation on the legal framework
   for elections by sponsoring discussions, debates, and other related events. AERCA-
   sponsored consultations brought together representatives of leading CSOs and political
   parties to make recommendations for Parliament to consider in preparing a new election
   law. In addition, the ELECT II and SIEP programs provided technical assistance to the IEC
   in preparing and publishing a draft election law for consideration by the Afghan Ministry of
   Justice. The Afghanistan Parliamentary Assistance Program enhanced transparency in
   deliberations on the electoral framework by providing detailed coverage of parliamentary
   debates and reports and by facilitating participation of members of Parliament in televised
   roundtable discussions on the legal framework.

	 The ELECT II, AERCA, and SIEP programs also promoted public awareness. The ELECT II
   project supported the IEC in planning and executing public relations activities associated
   with voter registration, including holding press conferences, conducting a series of
   stakeholder consultations, and issuing press releases regarding developments. Through
   AERCA, USAID sponsored surveys on past voter experiences and public perceptions of the
   electoral process. The SIEP program developed and disseminated articles on the elections
   and electoral processes and maintained Web sites in Dari and Pashto to highlight
   developments. According to the program implementer, these Web sites attracted the
   attention of more than 11,500 users in the first three quarters of FY 2013 and received an
   85 percent satisfaction rating from those who accessed them.

	 The SIEP program increased transparency through support for monitoring the voter
   registration process.

Plans for Electoral Support Had a
Noteworthy Gap and Limitations
The 2014 elections will be among the most complex and expensive civic operations that
Afghans have managed. Authorities must identify and provide security for thousands of polling
centers; review and accredit hundreds of thousands of candidate, party, and media
representatives and independent observers; recruit, hire, and train more than a hundred
thousand temporary poll workers; develop, distribute, retrieve, and count millions of ballots; and
quickly assess and adjudicate what are likely to be thousands of allegations of improprieties in
the electoral process. In addition, authorities will be responsible for procuring, transporting, and
maintaining control of sensitive election materials like vote tally sheets, ballot box seals, and ink

15
   Organization for Security and Co-operation in Europe, Office for Democratic Institutions and Human
Rights, OSCE/ODIHR Election Support Team Report: Islamic Republic of Afghanistan Parliamentary
Elections, 18 September 2010, November 26, 2010; National Democratic Institute, “Preliminary Statement
of the National Democratic Institute Electoral Observation Mission to Afghanistan’s 2010 Legislative (Wolesi
Jirga) Elections,” September 20, 2010.



                                                                                                         10
to mark voters and prevent duplicate voting. Law enforcement and military personnel will be
responsible for providing security for these materials, voting centers, candidates, observers, and
voters. Electoral authorities will be responsible for managing and overseeing personnel,
materials, and activities valued at more than $100 million.

Climatic factors further complicate electoral administration in Afghanistan. Much of
Afghanistan is mountainous and difficult to access by road. Snow is likely to remain in much of
the country at the time of the election, rendering some roads impassable.  Because 80 percent
of Afghanistan’s population resides in rural areas,16 many of which are remote, monitoring and
responding to weather conditions and overcoming transportation challenges are important
during elections.
 
The nation’s linguistic diversity and the literacy rate of its population also present challenges to
electoral authorities. Afghanistan has many ethnic groups, and the nation’s two official
languages (Dari and Pashto) are spoken by only 85 percent of the population. According to the
Ministry of Education, only about a quarter of Afghanistan’s adult population is able to read. 

Growth of the voting-age population is another challenge. There has not been a recent
population census, but the United Nations’ Children’s Fund estimates that more than half of
Afghanistan’s population is below the age of 18, voting age. As a result, many people become
eligible to vote each electoral cycle, increasing voter registration and education requirements.

Afghanistan’s displaced population has also complicated efforts to identify voters. Many
Afghans have been displaced by conflict, and according to the UN High Commission for
Refugees, 2.7 million Afghans continue to live in exile in neighboring countries. Meanwhile,
almost 6 million Afghan refugees have been repatriated over the last decade. The IEC is
responsible for supporting voting by Afghan refugees outside the country and for registering
recently returned refugees as eligible voters.

The international donor community has provided substantial support to Afghans to help
overcome these types of challenges in past elections. Afghanistan’s first two elections after the
fall of the Taliban government in 2001—the presidential election in 2004 and parliamentary
elections in 2005—were administered by the UN Assistance Mission in Afghanistan and an
interim joint electoral management body. Afghan authorities led the administration of the 2009
presidential and 2010 parliamentary elections, but did so with significant support from
international partners. In fact, according to program reports, at the time of the 2010 elections,
international staff supporting the IEC’s headquarters-based permanent workforce outnumbered
it. Indeed, two of the five commissioners presiding over the electoral complaint resolution body
were foreign nationals.17 Meanwhile, the International Security Assistance Force provided
critical transportation and communication assistance and played a lead role in electoral security.
The international donor community has also provided the vast majority of financial support for
past elections, and the U.S. Government alone provided more than half the financing for the
2009 and 2010 elections.
 


16
   World Food Programme, Food Security Atlas, http://foodsecurityatlas.org/afg/country/socioeconomic-
profile/introduction, accessed October 1, 2013. 

17
   Congressional Research Service, Afghanistan: Politics, Elections, and Government Performance, 

September 14, 2010.




                                                                                                 11
The donor community’s aim for the 2014 elections is for Afghan authorities to conduct credible
elections with less external support than in the past. It is important, therefore, that USAID and its
implementing partners operate in support of Afghan counterparts who are responsible for
advancing electoral initiatives.

USAID and other international donors have worked with Afghan institutions in developing plans
and programs to support many features of the electoral process. In addition to continuing to
support ELECT II and AERCA program activities, USAID will be providing assistance through
the SPECS project. It is to provide technical assistance to civil society groups to promote
political dialogue, provide training to candidates and political leaders on communication and
platform development, and support women and youth engagement in political processes.
ELECT II project plans also include supporting the procurement of sensitive electoral
equipment, such as ballot papers and indelible ink, as well as advice and assistance to the IEC
in opening polling centers; counting ballots; and tallying, processing, and announcing election
results.

At the time of this review, however, an important gap was apparent in support for electoral
dispute resolution.

	 Electoral dispute resolution. The operation of an effective electoral dispute resolution
   mechanism has implications for the transparency and credibility of elections in Afghanistan.
   Observers of past elections in Afghanistan have noted pervasive fraud and technical
   deficiencies in the administration of elections, underscoring the importance of maintaining
   an effective mechanism for taking in and considering reports of fraudulent activity and
   electoral malpractice.

     The complaints adjudication process has the potential to decide the outcome of elections. In
     the 2009 presidential contest, about 1.1 million ballots, representing 19 percent of the total
     votes cast, were annulled18—an amount approximately equivalent to President Karzai’s final
     margin of victory. Meanwhile, the complaints commission19 excluded about 300,000 ballots
     in the provincial council elections of that year, where the margins of victory were as small as
     seven votes.20

     The body responsible for adjudicating electoral complaints must meet challenging
     performance standards. Yet only a quarter of Afghans surveyed about their experiences
     during the 2010 parliamentary elections characterized the complaints commission’s
     performance as good or satisfactory.21 To satisfy the public, the complaints commission
     must evaluate and resolve electoral complaints in a transparent manner in line with declared
     criteria. Moreover, to meet time standards set by law, it must do so rapidly.



18
    Electoral Complaints Commission, Final Report: 2009 Presidential and Provincial Council Elections, 

April 2010. The ECC directed the IEC to annul 1.3 million ballots, but the final election results announced

by the IEC reflected annulment of only 1.1 million ballots.

19
   In Afghanistan, the electoral complaints commission has the authority to adjudicate complaints related to

candidate and voter eligibility and electoral offenses, and to recount and invalidate ballots. 

20
    Audit of USAID/Afghanistan’s Support to The Electoral Process and Support for Increased Electoral

Participation in Afghanistan Programs, Report No. F-306-11-003-P, June 19, 2011. 

21
   The Asia Foundation for USAID, Voter Behavior Survey: Afghanistan’s 2010 Parliamentary Elections, 

2012. 




                                                                                                        12
     During the last electoral cycle, USAID provided significant assistance to the complaints
     commission through the Support to the Electoral Process (STEP) Program, which has since
     concluded. The program provided technical support, security, training, and communications
     assistance. In 2010, for example, the STEP program supported training that reportedly
     reached approximately 600 complaints commission staff.

     Afghan authorities had not completed the framework for electoral dispute resolution for the
     2014 elections at the time of fieldwork. Notwithstanding this limitation, donors had worked
     with ELECT II project personnel to outline an assistance arrangement for Afghanistan’s
     permanent electoral dispute resolution body. The June 2013 ELECT II project work plan
     accounts for more than $10.5 million in planned assistance to build the dispute resolution
     body’s institutional capacity and provide it with expert technical advice.

     An evaluation team that examined the predecessor project, ELECT, noted a conflict of
     interest between project support for the IEC and support for the complaints commission.
     This potential conflict stems from the fact that the complaints commission may be called
     upon to evaluate complaints related to the performance of the IEC. Evaluators wrote that the
     project devoted more time, energy, and resources to helping the IEC than to the complaints
     commission.22 A mid-term review of the ELECT II project concluded that for the 2014
     elections, the project should not directly administer support for the complaints commission to
     avoid a conflict of interest and to maximize support for the complaints commission.23 To
     mitigate any possible conflict of interest, UNDP planned to distinguish support for these
     functions by subcontracting for assistance to the complaints commission.

     Although the ELECT II work plan describes a possible procurement arrangement, a
     corresponding subcontract had not yet been advertised or let at the time of this review. As
     the legal framework for Afghanistan’s electoral dispute resolution body was still under
     debate during fieldwork, moving forward with such a procurement would have been
     premature.

     With the establishment of a legal framework for electoral dispute resolution shortly after
     fieldwork, project implementers needed to move quickly to advance a procurement in this
     area to ensure that Afghanistan’s electoral dispute resolution body would be in position to
     perform pre-election functions. Delays in key ELECT II project implementer procurements
     during past elections, however, suggest that donor prompting could help advance this time-
     sensitive procurement. Without prompt action to provide needed support to establish and
     build the capacity of this key electoral body, the credibility and transparency of the 2014
     elections could be in doubt.

In addition to the gap in plans for electoral dispute resolution, we noted limitations in support for
civic outreach and voter education, election observation and monitoring, and women’s
participation.




22
   Checchi & Co., Consulting for USAID, Final Report: Elections Assessment by USAID in the Islamic

Republic of Afghanistan, August 2011. 

23
   UNDP, Enhancing Legal and Electoral Capacity for Tomorrow Phase II (ELECT II) 2012-2013 Mid-

Term Review Phase A Report, February 26, 2013. 




                                                                                                  13
	 Civic outreach and voter education. The effective engagement of civil society is also
   important for an inclusive election. A recent USAID guide on programming global democracy
   and governance activities observes that:

        An informed and active citizenry is the driving force behind a genuine and
        competitive political process. It also helps build confidence in the system, and
        public acceptance of results. Free and fair elections require that all citizens
        understand the electoral system and political choices, and participate in political
        processes.24

     In Afghanistan, where past elections have been marred by widespread fraud, public
     skepticism toward participation in elections is significant. Civic outreach activities can help
     reduce this skepticism by educating the public about the electoral system, what rights
     citizens have in the electoral and political processes, and how to prevent the manipulation of
     results.

     USAID’s documentation of lessons learned from past civic education programs stresses the
     need to address the central challenge to democracy in a given setting. According to several
     observers, in Afghanistan, that challenge is securing a commitment to a genuine electoral
     process that provides a way to peacefully compete for power.

     This challenge is multifaceted and complex. First, alternative means of vying for power are
     currently in use and have been employed by a significant number of groups in the recent
     past. Afghanistan faces an insurgency that controls some parts of the country and regularly
     engages government forces in an effort to command more. Political factions currently
     operating within Afghanistan’s constitutional order have previously taken up arms in the
     struggle for power and may do so again. Second, government entities participating in the
     current electoral cycle have not always contributed to the credibility of past elections. The
     appointment in 2009 of an electoral commission that was seen as biased, changes to the
     dates for elections, and the establishment of an electoral law without broad consultation or
     agreement have all been regarded as reducing the credibility of past elections. Finally,
     Afghan citizens have low levels of confidence in the electoral process. Only 38 percent of
     Afghans reported that they viewed the performance of the IEC as either good or satisfactory
     following the 2010 elections.25 Moreover, Afghans were evenly divided on whether they
     viewed the last elections as fair or not.26

     According to USAID program reports, hundreds of thousands of Afghans have attended
     voter or civic education sessions. Tens of millions more have been exposed to USAID-
     sponsored public service announcements and election-related media campaigns. However,
     an August 2011 assessment of civic education activities funded by USAID/Afghanistan
     noted a lack of focus and “the need for a sense of strategic goals and broad perspective.”27
     The need for a more focused approach in this area continued to characterize programming
     at the time of this review.



24
   User’s Guide to Democracy, Human Rights, and Governance Programming, May 2013. 

25
   The Asia Foundation, Voter Behavior Survey: Afghanistan’s 2010 Parliamentary Elections, 2012.

26
   Ibid.

27
   Checchi & Co., Consulting for USAID. 




                                                                                                    14
      Many Afghans remain uncertain about rights and processes associated with their
      participation in elections, and even more lack confidence in the system’s ability to provide a
      fair outcome.28 This is a particular concern with respect to Afghanistan’s Pashtun population
      in the south and east of the country, where insurgent influence is strongest.

      According to a 2012 survey, Pashtuns are less inclined to vote in Afghan elections than are
      members of other ethnic groups. Whereas only 42 percent of Pashtuns reported voting in
      2010 parliamentary elections, 61 percent or more of each of Afghanistan’s other major
      ethnic groups—Uzbek, Turkmen, Tajik, and Hazara, whose relative sizes are shown in the
      following figure—reported doing so. Absent some change, indications are that this pattern
      will continue, as only 30 percent of Pashtuns have said that they would vote in the next
      presidential elections.29

                              Ethnic Composition of the Afghan Population




                                               Other, 13


                                        Uzbek, 9
                                                                Pashtun, 42
                                       Hazara, 9




                                               Tajik, 27



                               Note: "Other" includes Aimak, Turkmen, and Baloch.

          Source: Library of Congress Federal Research Division, Country Profile: Afghanistan,
          August 2008, http://lcweb2.loc.gov/frd/cs/profiles/Afghanistan.pdf, accessed on
          November 5, 2013.

      Planned USAID support for civic outreach and voter education has the potential to engage
      broad segments of the Afghan population in dialogue about the elections and educate them
      about how they can participate and why they should. SPECS project plans, for example,
      include organizing and broadcasting about 23 radio call-in shows to provide a platform for
      dialogue on electoral processes and citizen priorities. The shows are expected to air on a
      53-station network covering all of Afghanistan. The ELECT II project plans to support the
      IEC in preparing and delivering public service announcements about the elections and doing
      outreach—for example, by using face-to-face sessions with CSO networks and mobile
      theater to reach rural, illiterate populations.


28
     Ibid; Democracy International for USAID; The Asia Foundation, Afghanistan in 2012.
29
     Democracy International for USAID.



                                                                                                 15
     USAID’s planned activities did not, however, reflect an emphasis on the Pashtun population
     in Afghanistan’s south and east. Whereas IEC outreach plans will reportedly focus on
     segments of the electorate that have been marginalized, these segments are ethnic
     minorities, not Pashtuns. The SIEP program’s ethnically oriented, CSO-based activities
     likewise focused on ethnic minorities and not on Afghanistan’s largest ethnic group, its
     Pashtuns.

     Without 2014 electoral participation that extends across Afghanistan’s political, geographic,
     and ethnic divisions, groups may look for other ways to compete for power. USAID has an
     opportunity to concentrate some of the outreach it supports on those who have had the
     lowest historical levels of participation. Unless the mission takes advantage of that
     opportunity, Pashtun participation in elections could remain low or decline further. This, in
     turn, could foster perceptions among many in that community that elections are not a fair or
     desirable approach for allocating power.

	 Election observation and monitoring. Observation of elections by political participants
   and their representatives, local nongovernmental organizations, and international
   organizations is a common approach for identifying and guarding against errors, distortions,
   and manipulation in voting operations. The participation of these groups in the electoral
   process promotes transparency and credibility. Yet more than one in four Afghan
   respondents to a survey on the 2010 parliamentary elections indicated that elections did not
   take place in the presence of observers, media, and monitors.30

     USAID has recognized the important role that observers and monitors will play.
     USAID/Afghanistan planning documents characterize the ability of domestic observer
     groups to provide sufficient coverage throughout the country as a precondition to the
     mission’s ability to implement activities effectively in support of elections and political
     processes. Moreover, the mission plans to rely on reports by international election observers
     to verify the success of its activities.

     Effective observation and monitoring activities can help check electoral fraud and
     malpractice, widespread features of past elections in Afghanistan. In 2009, thousands of
     polling stations submitted more ballots for official counting than the IEC had given them. A
     study of 2010 election results found that nearly 80 percent of vote totals reported at the
     national level for polling centers disagreed with vote tally sheets photographed at the
     centers.31 These mismatches suggest that provincial, regional, or national election officials
     routinely manipulated results tabulated at the local level. This level of electoral fraud and
     malpractice has eroded voter confidence in the process and discouraged participation. Of
     those who reported that they did not vote in the 2010 elections, more than four in ten gave
     fraud in previous elections as their reason.32

     In addition to helping check electoral fraud and malpractice, election observers and monitors
     promote transparency. Afghan and international observer groups have provided
     independent reporting on voter registration. In the past, these groups have posted regular

30
   The Asia Foundation, Voter Behavior Survey. 

31
   Michael Callen and James D. Long, “Institutional Corruption and Election Fraud: Evidence from a Field

Experiment in Afghanistan,” University of California Institute on Global Conflict and Cooperation, 

February 25, 2013. 

32
   Democracy International for USAID. 




                                                                                                    16
     updates on electoral developments and provided recommendations for improving future
     elections. During past elections, an implementer under the SIEP program used USAID
     funding to maintain an online database with information on votes and complaints. The
     database still serves as a resource for researchers.33

     USAID plans to continue to support observation and monitoring efforts for the 2014
     elections. The ELECT II project helped the IEC complete a code of conduct for election
     observers and begin to accredit observers. Past SIEP program activities included assistance
     to Afghanistan’s primary observer organization, the Free and Fair Election Forum of
     Afghanistan. Under the SPECS project, USAID plans to contact candidates to identify
     election monitors, provide them with a step-by-step guide to monitoring and reporting on
     elections, and deliver workshops around the country on election procedures and the rights
     and obligations of polling agents.

     At the time of this review, however, USAID had not determined how it planned to support the
     efforts of independent, domestic observer organizations. Because other donors were
     reportedly also considering assistance in this area, SPECS project plans for support to
     domestic observer organizations were on hold at the time of fieldwork, pending coordination.

     While plans for support in this area were still under discussion, progress was delayed. A
     single domestic observer organization, The Free and Fair Election Forum of Afghanistan
     reportedly planned to mobilize up to 10,000 observers for the 2014 elections. During the first
     2 months of the registration process for observers, however, the IEC had accredited only
     219. Thousands of other domestic observers had yet to be trained and accredited.

     Effective election observation and monitoring can help reduce fraud and, in turn, help arrest
     the decline in voter turnout among voting age Afghans seen in every Afghan election since
     2004.34 Without coordinated assistance for election observation and monitoring, however,
     fraud could increase, undercutting the legitimacy of declared election winners and
     depressing future Afghan participation in elections.

	 Women’s participation. The inclusiveness and credibility of Afghanistan’s 2014 election will
   be affected by the level of women’s participation.

     Under Afghanistan’s constitution, men and women enjoy equal rights and duties before the
     law.35 Afghanistan’s election law guarantees women the right to participate in elections and
     exercise their right to an equal vote free from restriction. Notwithstanding these rights, women
     have participated in elections to a lesser extent than men. Although women are guaranteed
     more than a quarter of the seats in Afghanistan’s lower house of Parliament, women
     accounted for only 16 percent of the candidates in the 2010 parliamentary election. Whereas
     women make up approximately half of Afghanistan’s population, votes cast at polling stations
     specifically designated for women account for only 40 percent of the total in past elections.36
     Limitations in awareness or acceptance of women’s right to vote may have contributed to this

33
   Information about this activity appears on the Web at www.afghanistanelectiondata.org.

34
    International Institute for Democracy and Electoral Assistance, Voter Turnout for Afghanistan, Voter

Turnout Database, http://www.idea.int/vt/countryview.cfm?id=4, accessed September 26, 2013. 

35
   Constitution of Afghanistan (2004), Article 22. 

36
   U.S. Institute of Peace, “Special Report: Learning from Women’s Success in the 2010 Afghan Elections,”

June 2012. 




                                                                                                      17
     dynamic. A survey of voting behaviors in the 2010 parliamentary elections noted that a quarter
     of women respondents who did not vote said women were not permitted to vote.37

     Social norms accepted by many Afghans dictate that women not interact with men who are
     not relatives. To accommodate female voters’ adherence to these norms, Afghanistan
     operates separate polling and registration centers managed and run by women for women.
     In addition, the Government of Afghanistan arranges for female searchers to conduct
     security checks at polling locations for women.

     Despite these planned accommodations, observers of past elections have noted significant
     impediments to women’s participation. Women poll workers were reportedly in short supply
     or absent from many locations during the 2010 elections. In addition, female security
     searchers in some locations had reportedly received no training. In the absence of female
     staff, some female polling centers were reportedly staffed by male personnel, a factor some
     observers said deterred women from voting in those areas. One team of observers from the
     National Democratic Institute noted that at 11 percent of female polling stations they visited
     male staff were present. In addition, female observers have sometimes reportedly been
     absent from significant geographic areas, and women have been underrepresented among
     IEC voter educators, observers, and candidate agents responsible for monitoring election
     proceedings on behalf of candidates.

     These conditions, coupled with weaknesses in controls in female voter registration, may
     have led to high levels of fraud at female polling centers. Voter registration cards do not
     include photographs of women who choose not to have their photos taken because doing so
     goes against some cultural norms. The lack of photo identification on some female voter
     cards, combined with the absence of serial numbers and addresses, makes it easier for
     individuals to obtain multiple female voting cards. Election officials have reported in past
     elections that candidates paid women to obtain multiple voting cards because no photo was
     required for their registration. Given norms limiting the political participation of women and
     poor security conditions in some areas, some observers of past voter registration efforts
     have seen the high percentage of female voter registration cards issued in such areas as an
     indicator of large-scale identity fraud. In the lead-up to the 2009 elections, for example,
     significantly more voter registration cards were issued to women than to men in socially
     conservative, insecure parts of the country.

     Fraud and electoral malpractice have been widely reported in connection with female voting
     centers in the past. Witnesses to past elections have reported extensive proxy voting—men
     voting for women—in some areas.38 In other cases, ballot stuffing is alleged to have
     occurred at female polling stations that were not well monitored. Whereas one village
     reportedly lacked an operational female polling center for the 2010 elections, for example,
     the village recorded 505 female votes.39

     While many past indications of electoral fraud and disenfranchisement have been linked to
     female voting and registration centers, Afghanistan’s electoral dispute resolution process
     has not responded proportionately. According to the Free and Fair Election Forum of
     Afghanistan, the complaints commission had no female personnel in most of its provincial

37
   The Asia Foundation, Voter Behavior Survey. 

38
   U.S. Institute of Peace.

39
   National Democratic Institute, The 2010 Wolesi Jirga Elections in Afghanistan, 2011. 




                                                                                                18
offices during the 2010 elections. Some observers view this fact in combination with low
levels of female literacy as primary reasons why women lodged only slightly more than one
in ten complaints during the 2010 electoral process.

With support from the ELECT II project, the IEC has developed a gender strategy and action
plan for voter registration outreach. Its public outreach campaign has several elements that
specifically target female voters, such as public service announcements on women’s
participation. As noted earlier, IEC provincial staff have also met and coordinated with
religious leaders, CSOs, influential women, and women’s networks to encourage women’s
participation.

However, such efforts have not boosted women’s representation among registered voters.
Whereas 41 percent of registered voters were women in 2004, this percentage declined to
between 35 and 38 percent in 2009. As of September 2013, female registrations accounted
for only 27 percent of the total in the IEC’s 2013 voter registration drive.

USAID has planned several activities to counter this trend. USAID plans to provide
instruction on campaigning to female candidates from all 34 provinces under the SPECS
project. This project is also planning a series of radio programs in Kabul and five provinces
to educate the public on women’s rights and gender equity. The ELECT II project will
continue to support the development of the IEC’s gender unit and efforts to incorporate
gender considerations in all aspects of the electoral administration process.

Whereas the U.S. Government regards women’s participation in elections and political
processes in Afghanistan as a priority, donor assistance for the 2014 elections may not
effectively address one important barrier to women’s participation. Shortages of female
personnel in key aspects of the electoral process have the potential to undercut electoral
inclusiveness and credibility, but few actions were planned to address this possibility.

At the time of this review, some USAID-funded programs had not set targets for supporting
the participation of key female personnel. The SPECS project, for example, had not yet
established targets for the numbers of female election monitors and observers and
candidate agents that it planned to recruit or train. Meanwhile, although the ELECT II project
had plans to support electoral dispute resolution, it had not worked with Afghan authorities
to identify targets for the number of female complaints commission personnel that to bring
aboard before the elections. Without identifying targets for female personnel in these areas
and activities for meeting these targets, USAID-funded programs cannot ensure that
adequate numbers of female personnel will be present to support the elections.

The ELECT II project established targets for the proportion of female personnel serving in
different capacities with the IEC—such as civic educators, voter registration staff, and polling
day workers—in its revised program document. The project had also developed plans for
promoting the recruitment of women to serve in these roles. Project plans included, for
example, developing a gender strategy and integrating gender considerations into electoral
plans and IEC policies and practices.

Early indications, however, suggested these activities were not having the intended effect.
Despite the IEC’s focus on hiring women to work at registration centers, 11 percent of




                                                                                             19
     registration centers had no female workers as of late July 2013.40 And more than 4 years
     after the establishment of a gender unit in the IEC, women still accounted for only about one
     in seven of its permanent employees.41

     These conditions may foreshadow shortfalls in the number of female poll workers, voter
     educators, observers, candidate agents, and electoral complaints personnel. If shortages of
     women in these key roles occur on the scale observed during the 2010 elections, women’s
     participation in the 2014 elections may remain low.

In addition to these four gaps and limitations in electoral assistance plans, questions remain
regarding how USAID can best assist Afghan authorities in addressing critical, time-sensitive
needs that are likely to arise during the electoral process.

National elections in Afghanistan are large, complex events, and the operational success of
such elections depends on many variables. Early 2013 IEC planning efforts for 2014 electoral
operations were hailed as a major improvement over planning efforts for previous elections.
Given the number of variables at play in Afghan elections, however, unanticipated needs may
arise during the electoral process.

With the ELECT II project’s core focus on supporting Afghanistan’s electoral management
bodies, this project could be seen as the best mechanism for responding to such unanticipated
needs. Experience, though, suggests that support outside the framework of the ELECT II project
might be required. An expert on electoral assistance to Afghanistan familiar with USAID support
for the 2010 parliamentary elections concluded that the ELECT project was insufficiently nimble
to address emerging problems. Delays in ELECT’s budget and procurement processes, for
example, limited the complaints commission’s ability to execute a full media campaign and led
the project to delegate virtually all of its procurements to the IEC. In addition, salary payments to
staff were reportedly late, buildings and office equipment did not arrive on schedule, and key
contracts were delayed. As a result, important project objectives, such as public outreach, were
not met. The ELECT project’s past reported weaknesses are consistent with problems seen in
UNDP-implemented election support programs elsewhere. UNDP’s Evaluation Office has
reported on these weaknesses in its election support activities in other countries and
recommended the improvement of its procurement and recruitment systems to better support
electoral processes.42

USAID did not depend solely on the ELECT project to address critical, time-sensitive election-
related needs in the past. The mission provided supplemental support in this area through the
STEP program. According to a 2011 assessment of USAID/Afghanistan’s elections and political
processes portfolio, the STEP program was able to fulfill unforeseen needs faster than the
ELECT project. The assessment concluded that the STEP program’s “quick-reaction gap filling”
was essential to the completion of key activities in the electoral process.43
40
   United Nations Assistance Mission in Afghanistan, “IEC kicks off second phase of voter registration,”

http://unama.unmissions.org/Default.aspx?ctl=Details&tabid=12330&mid=15756&ItemID=37107, accessed 

September 25, 2013. 

41
   UNDP, Enhancing Legal and Electoral Capacity for Tomorrow – Phase II (ELECT II), January 2012 –

December 2015, Revised Project Document, August 2013.

42
   UNDP Evaluation Office, Evaluation of UNDP Contribution to Strengthening Electoral Systems and

Processes, August 2012. 

43
   Checchi & Co., Consulting for USAID, Final Report: Elections Assessment by USAID in the Islamic

Republic of Afghanistan, August 2011. 




                                                                                                   20
Although ELECT II project officials expressed confidence in UNDP’s ability to provide timely
human resources and procurement support during the 2014 elections, others had reservations.
Both IEC and USAID officials acknowledged that having some support beyond the ELECT II
project to help meet emerging, time-sensitive needs would be desirable as the 2014 elections
approach.

At the time of fieldwork, USAID/Afghanistan’s Office of Democracy and Governance staff had
discussed approaches for addressing contingencies that could arise but had not developed a
clear contingency plan. USAID could help avoid these problems during Afghanistan’s
watershed 2014 elections by setting target dates for ELECT II procurement and human capital
support that, if not met, would trigger the adoption of another implementing mechanism better
suited to addressing critical emerging needs during the election process. Without a clear
approach for addressing critical, time-sensitive needs that may arise during the electoral
process, these needs could remain unmet, hampering electoral operations and damaging the
credibility of the process.

A smooth and peaceful transfer of power may not be possible without broad acceptance of the
electoral results. Elections that are not regarded as credible, inclusive, or transparent are less
likely to produce results that the Afghan people accept. These three electoral characteristics
are, in turn, likely to be diminished without prompt donor action to address gaps and limitations
in planned assistance. Without timely support for Afghanistan’s electoral dispute resolution
body, election observers, and monitoring agents, electoral transparency is likely to be reduced.
Absent additional assistance to provide security, promote women’s participation, and engage in
targeted civic outreach, 2014 elections are unlikely to reach desired levels of inclusiveness.
Moreover, without more work in each of the above areas and additional planning to address
critical needs that might arise in the electoral process, elections may not meet basic thresholds
for credibility.

Therefore, we make the following recommendations.

   Recommendation 1. We recommend USAID/Afghanistan work with international donors
   to prompt the advertisement and letting of a subcontract under the Enhancing Legal and
   Electoral Capacity for Tomorrow Phase II Project to address Independent Electoral
   Complaints Commission support requirements in a way that mitigates potential conflicts
   of interest.

   Recommendation 2. We recommend that USAID/Afghanistan coordinate with the
   Government of Afghanistan and the international donor community to implement a plan
   for supporting broad-based civic outreach and education with a focus on increasing
   commitment to a genuine electoral process, particularly in predominantly Pashtun areas.

   Recommendation 3. We recommend that USAID/Afghanistan work with international
   donors to finalize and implement plans for supporting independent domestic observer
   organizations.

   Recommendation 4. We recommend that USAID/Afghanistan work with the
   Government of Afghanistan and other international donors to identify and help meet
   targets for women in key electoral roles, and implement plans for the recruitment and
   training of needed female poll workers, voter educators, observers, and complaints
   commission personnel, as well as for the training of female candidate agents.


                                                                                               21
   Recommendation 5. We recommend that USAID/Afghanistan develop a contingency
   plan to address critical, time-sensitive electoral support needs that may emerge during
   the current electoral cycle in consultation with the Government of Afghanistan and the
   international donor community.

USAID Support Has Contributed to
Afghan Solutions to Previously
Identified, Longer-Term Issues
OIG’s previous audit of Afghanistan elections assistance identified a number of longer-term
issues that needed to be resolved to achieve the USAID mission’s aims of strengthening
electoral administration, raising citizen awareness of the electoral process, and establishing
competitive and credible electoral and political processes. These longer-term issues included
(1) approving an electoral law that has received majority support from both chambers of
parliament, (2) establishing a permanent electoral complaints commission, (3) defining an
effective process for appointing independent commissioners to the IEC and the complaints
commission, (4) reforming Afghanistan’s voting system, and (5) establishing a more reliable
voter registry. OIG recommended that the USAID mission develop detailed plans for addressing
these issues in conjunction with the Afghan Government, other local stakeholders, and
international donors; the mission agreed.

Since that time, USAID, along with other donors, has supported a number of Afghan efforts to
address these issues. These efforts have had some success.

Electoral Law. As previously discussed, the ELECT II, AERCA, and SIEP programs supported
debate and discussion on the legal framework for Afghan elections and electoral institutions. In
July 2013, this discussion and debate culminated in President Karzai’s approval of a new
election law and a law on appointing commissioners. Prior to President Karzai’s approval, these
laws were passed by a majority of both houses of Parliament, demonstrating a wide base of
support.

Permanent Complaints Commission. Significantly, these laws made the complaints
commission permanent. Under Afghanistan’s past legal framework for elections, the complaints
commission was an ephemeral institution. It appeared 4 months before an election and
disappeared 2 months afterward. Afghanistan’s recently passed Law on the Structure, Duties,
and Authorities of the IEC and Independent Electoral Complaints Commission endows the latter
with a secretariat and permanent staff.

Process for Appointing Commissioners. Previous mechanisms for appointing commissioners
to the IEC and the complaints commission lacked transparency and did not promote their
independence. Afghanistan’s 2010 electoral decree stipulated that the commissioners for the
IEC and complaints commission were to be appointed by the executive, but provided little
information about how this process was to occur.

The July 2013 Law on the Structure, Duties, and Authorities of the IEC and Independent
Electoral Complaints Commission establishes a selection committee to vet eligible
commissioners and recommend individuals to the Afghan President. Under the law, the
selection committee is to include representation from both chambers of Parliament, the
Supreme Court, the Afghan Independent Human Rights Commission, and CSOs.


                                                                                             22
Other provisions of the law reinforce the independence of the IEC and the independent
complaints commission. The law clearly establishes that these bodies are to be “independent in
[their] spending.” It sets out their duties and authorities and protects commissioners from
prosecution without prior court approval unless they are caught in a criminal act. To help provide
for the independence of commissioners, the law prohibits their membership in a political party. It
also restricts the types of positions IEC commissioners can hold while serving.

The law also limits eligibility for employment with the IEC and complaints commission. To
promote the independence and credibility of commission personnel, Articles 19 and 32 of the
law bar the hiring of political party or candidate representatives or immediate family of
candidates as temporary or permanent IEC or complaints commission employees. These
sections of the law also require heads of provincial offices of both bodies to be appointed from
among the residents of other provinces.

Although Afghans were responsible for considering and adopting these changes, USAID
facilitated their development and review. The ELECT II project provided technical assistance to
the IEC in preparing the version of the election law that it proposed to the Afghan Government.
The SIEP program held meetings where participants discussed the constitutionality of various
proposals for changes to Afghanistan’s electoral framework. The AERCA program facilitated
discussions among CSOs that produced recommendations for Afghanistan’s elections. The
project brought CSO representatives together with political party members to refine these
recommendations and present them to Afghan members of Parliament. The Afghanistan
Parliamentary Assistance Program, in turn, provided technical assistance to the parliamentary
bodies that considered these recommendations and developed the legislation that was
ultimately approved.

Voting System Reform. Despite efforts to reform Afghanistan’s voting system, the 2014
provincial council elections will proceed under the SNTV system.44 Under the system, voters in
a multiseat constituency can vote for only one candidate. Candidates compete for multiple seats
within the constituency, and seats are allocated to the candidates who receive the most votes.
In a ten-seat constituency, the system awards seats equally to the leading vote-getter and the
tenth-place finisher.

In Afghanistan, it is common for the last few seats in a constituency to be won by candidates
receiving a small number of votes. In past elections, candidates have won seats in
Afghanistan’s Parliament with less than 1 percent of the vote. The limited number of votes
needed for victory has tended to encourage more people to run, and elections have been
characterized by large numbers of candidates. In the 2009 provincial council elections, for
example, there were 3,196 candidates for 170 contested seats, or an average of almost
19 candidates per seat. The large numbers complicate election administration. In the case of
Kabul Province, the IEC was reportedly required to prepare a nine-page ballot to list 520
candidates. 45 The province had five provincial council seats.


44
   Afghanistan’s President is elected from a single-seat constituency. As a result, the single, nontransferable

voting system does not apply to presidential elections. 

45
   Organization for Security and Co-operation in Europe, OSCE/ODIHR Election Support Team Final

Report: Islamic Republic of Afghanistan Presidential and Provincial Council Elections, 20 August 2009,

December 8, 2009.



                                                                                                            23
In addition to complicating electoral administration, this system has reduced the likelihood that
elected candidates in a given constituency represent a majority of its voters. Nearly two-thirds of
votes in Afghanistan’s 2010 parliamentary elections were cast for losing candidates, and in only
2 of the nation’s 35 constituencies were more than half of votes cast for winning candidates.46

The small margins of victory that have characterized the system in Afghanistan magnify the
potential effects of fraud. According to one study, under single, nontransferable voting:

        The vote margin separating the lowest winning candidate from the highest losing
        candidate is often small. This creates a high expected return for even small
        manipulation for many candidates.47

The system also hinders the development of political parties. It provides no assurance that a party
that wins the majority of votes will receive the majority of seats. Without high-confidence polling
data, it is difficult for political parties to develop an electoral strategy to ensure that more than a
single candidate from the party is elected from a multiseat constituency. Under this system,
multiple candidates from a given party could divide the party’s base of votes and lead to none
being elected.

Given these concerns about the SNTV system, USAID electoral assistance programs promoted
education and discussion of alternative voting systems. The AERCA program, for example,
conducted research to provide CSOs, members of Parliament, and government officials with
data it had collected to provide the basis for a discussion of voting system alternatives. As part
of this effort, the AERCA program organized fact-finding missions to India, Mexico, South Africa,
and New Zealand for Afghans to gain perspective on the key electoral questions they faced.

Despite these efforts, Afghanistan’s Government has chosen to retain SNTV for electing
representatives from all multiseat constituencies. Consequently, it will continue to apply to
parliamentary and provincial council elections.

Voter Registry. Known weaknesses in Afghanistan’s voter registry will continue in the
upcoming elections. OIG’s previous audit on election assistance in Afghanistan summarized the
problems with the voter registry in this way:

        Prior to the 2004 presidential election, between 10 and 11 million voters were
        registered, but the voter cards were not numbered, did not include specific
        address information for voters below the province level, and did not include
        photos of female voters who preferred not to have their pictures taken for
        reasons of modesty. . . . Without addressing these fundamental problems,
        several topping up exercises were subsequently conducted that added 1.7 million
        registrations in 2004, 4.5 million in 2009, and 400,000 in 2010. The net effect of
        these efforts was to add millions of duplicate registrations, but the number is
        unknown because the registry has not been reviewed or audited to identify
        duplicate records, and basic demographic information (e.g., the number of


46
   Andrew Reynolds and John Carey, “Fixing Afghanistan’s Electoral System,” Kabul: Afghanistan Research

and Evaluation Unit, Briefing Paper Series, July 2012; National Democratic Institute, The 2010 Wolesi Jirga

Elections in Afghanistan, 2011. 

47
   Michael Callen and James D. Long. 




                                                                                                        24
        Afghans of voting age) is not available due to the lack of any census of the
        population of Afghanistan.

USAID, through the ELECT project, supported the IEC’s plans to improve the voter registry in
2012. Initial plans involved replacing existing voter registration cards with cards that would
capture biometric data and link registered voters to individual polling centers. Earlier this year
the Afghan Government rejected this plan and a subsequent initiative to verify and revalidate
previously distributed cards. IEC registration plans were, therefore, limited to a less ambitious
voter registration drive. Under this approach, previously distributed registration cards will be
accepted as legitimate election documents. This arrangement does not address problems with
fraudulent or duplicate voter cards or the lack of sufficient biometric information to identify voters
properly.48

In addition to voter registration cards, the IEC will accept new national identification cards as
valid documentation for voters in the 2014 elections. The Ministry of Interior Affairs is to
distribute the new, computerized ID cards, or e-tazkira. The cards are to contain address data
and biometric information useful for verifying the identity of cardholders. By combining voter
identification functions with other government identification features, the cards have the
potential to serve as a one-stop shop for key identification requirements—proof of citizenship,
for example. U.S. Government representatives we spoke with anticipate that Afghans will be
more interested in obtaining these new cards than in getting or using voter registration cards.
Consequently, they regard the use of e-tazkira as the most sustainable option for maintaining
voter registration data over the long term. Nevertheless, no e-tazkira cards had been distributed.

Because efforts to improve the quality of the voter registry through the issuance of new voter
registration cards became moot, ELECT II project shifted to support e-tazkira. The revised work
plan for ELECT II includes building the foundations for a voter registry using the e-tazkira
database. The project plans to contribute $435,000 to this longer-term voter registry solution,
while USAID plans to provide an additional $15 million in support.

In conclusion, USAID has provided significant support for Afghan solutions to the longer-term
issues identified in OIG’s previous audit of election assistance programs. These efforts
contributed to successes in establishing a more broadly accepted electoral law, a permanent
electoral dispute resolution body, and a process for selecting and appointing commissioners to
the IEC and the independent complaints commission that provides a measure of independence.
During fieldwork, plans for improving the voter registry had made little progress. USAID had,
however, adjusted assistance plans to take advantage of new opportunities for developing a
more credible, functional voter registry.

In the intense lead-up to the 2014 elections, USAID had not made similar adjustments to its
program activities in response to the failure of voting system reforms. Under these
circumstances, continuing support for discussion and debate about Afghanistan’s voting system,
for example, may no longer be productive. Similarly, support for candidates and political parties
may warrant reconsideration.


48
  Although the existence of fraudulent or duplicate voter cards can have an adverse effect on perceptions
regarding the credibility of elections, experts do not consider the use of previously issued cards to be among
the primary risks to the legitimacy of the 2014 elections. This is because other forms of fraud and
malpractice that have been reported in the past can have a much greater effect on electoral results.



                                                                                                           25
Unless USAID/Afghanistan makes appropriate adjustments to assistance programs in light of the
continued application of SNTV to elections, the mission risks allocating resources to activities that
are unlikely to succeed. Inefficient allocation of development resources also carries with it
opportunity costs—lost chances to strengthen other features of the electoral process that could
more effectively contribute to electoral credibility, inclusiveness, and transparency.

     Recommendation 6. We recommend that USAID/Afghanistan reevaluate and document
     any adjustments to its elections and political processes programming in light of
     Afghanistan’s continuing use of the single, nontransferable voting system.

Problems Jeopardized the
Sustainability of Some Activities
The Presidential Policy Directive on Global Development emphasizes building sustainable
capacity in recipient countries’ public sectors and at their national and community levels.49
Moreover, a central tenet of USAID’s Policy Framework is that “development efforts should aim
to nurture sustainable local institutions, systems, and capacities that enable developing
countries to manage their national challenges effectively.”50

This emphasis on sustainability is also reflected in Agency guidance. Chapter 200 of USAID’s
Automated Directives System (ADS) states that “the ultimate goal of [USAID’s] development
cooperation is to enable developing countries to devise and implement their own solutions to
key development challenges and to develop resilience against shocks and other setbacks.”51
Likewise, USAID is responsible for ensuring that activities tie to sustainable financing models.
Furthermore, ADS Chapter 201 explains that missions should have an “appropriate . . . strategy
to ensure that the [partner] institution(s) will remain administratively and financially sustainable
by the end of the project and equipped to continue to play their roles in local development.”52

Our previous audit of election assistance programs in Afghanistan recommended that USAID
develop detailed plans to help the Afghan Government make the transition to a more
sustainable elections system. USAID/Afghanistan agreed to do so in 2011. More than 2 years
later, the sustainability of the IEC, CSOs, and political parties remains a challenge.

	 Independent Election Commission. At the time of this review, challenges to the IEC’s
   sustainability related to its budget and ability to hire and retain qualified personnel.

     The USAID-supported ELECT II project continues to provide most of Afghanistan’s electoral
     financing. Whereas the Afghan Government’s planned financial contribution to 2014 election
     preparations had amounted to $2 million, international donors planned to provide
     $129.6 million. At present levels of revenue collection, the Government of Afghanistan would
     have to spend 7 percent of its annual domestic revenues to support the costs of these
     elections.

     ELECT II project officials plan to reduce the level of financial assistance provided for
     parliamentary elections in 2015 but have not developed a transition plan for Afghans to
49
   White House fact sheet, “U.S. Global Development Policy,” September 22, 2010.
	
50
   USAID Policy Framework, 2011-2015. 

51
   ADS 200.3.1.5, “Build in Sustainability from the Start.”

52
   ADS 201.3.15.3.g, “Institutional Analysis.” 




                                                                                                  26
   assume full financial responsibility for their elections in future years. Furthermore, although
   the recently approved legal framework for Afghanistan’s elections envisions the IEC
   executing its budget independently, the law does not establish a clear and transparent
   process for identifying and meeting the IEC’s budgetary requirements.

   Without a clearly established independent process for budgeting to meet the IEC’s financial
   needs or a plan to transition from donor support, the long-term financial sustainability of the
   IEC is in doubt, as is its ability to manage future elections effectively.

   Staffing has also presented problems for the IEC’s future sustainability. During fieldwork for
   this review, the IEC had vacancies in several key positions. These vacancies included the
   two deputy chief elections officer positions, four of ten department heads (including those for
   human capital and procurement), and a number of provincial leads.

   Changes under consideration to the IEC’s salary structure were likely to diminish the
   commission’s ability to attract the skilled professionals needed to fill key vacancies.
   Whereas in the past IEC personnel were paid according to an independent compensation
   schedule, future IEC salaries will match the Afghan Government’s civil service salary scales.
   ELECT II project plans also call for phasing out salary “top-ups” provided by international
   donors to permanent staff whose base salaries are paid by the government. Besides
   affecting employee recruitment, phasing out top-ups could diminish the IEC’s ability to retain
   critical staff. Still, the ELECT II project had not worked with the IEC and international donors
   to set future salary transition plans.

   A key objective of the ELECT II project is to enhance the IEC’s sustainability through staff
   capacity development. To facilitate this process, the ELECT II project has adjusted its staff
   structure to more closely mirror the IEC’s (thereby promoting more directly applicable
   knowledge and skills transfer to Afghan personnel), and increased its use of interpreters so
   that IEC staff with limited English language skills have greater opportunity to develop
   technical capacity during meetings and exchanges with ELECT II advisers. With key IEC
   vacancies and a lack of clarity on plans to eliminate salary top-ups, ELECT II project
   investments in the development of the commission’s personnel could have a reduced
   impact.

	 Civil society organizations. USAID/Afghanistan has provided support to several Afghan
   CSOs connected with elections and political processes. For several years the International
   Republican Institute (IRI), a SIEP program implementer, provided technical assistance and
   support to three Afghan CSOs: the Afghan Women’s Organization for Supporting
   Democracy, the Toran Afghanistan Developmental and Educational Organization (Toran),
   and the Afghanistan Youth National Social Organization. Yet questions remain about their
   future financial viability. At the time of the review, the Afghan Women’s Organization for
   Supporting Democracy and Toran relied on the SIEP program for all of their operating costs,
   including those associated with office space, equipment, and salaries, according to senior
   representatives of those groups. The youth organization relied on the SIEP program for
   about 60 percent of its operating costs.

   Representatives from these organizations expressed concern about the expected loss of
   SIEP program funding for their activities. They reported that they had not developed plans
   for continuing operations without USAID funding or had related discussions with IRI.




                                                                                                27
      IRI’s work plan identified promoting CSO partner sustainability as an intended interim result
      for the program. Toward this end, IRI conducted CSO assessments and focused on building
      CSO capacity in several areas, including monitoring and evaluation, ethics, financial
      management, and planning. Although IRI recognized that the sustainability of its CSO
      partners depended heavily on their ability to obtain additional funding, at the time of our
      review, IRI capacity-building efforts were not successful in helping the three CSOs establish
      a financial basis to continue to operate without USAID support.

      The heavy reliance of these CSOs on funding from USAID was not sustainable. The SIEP
      program finished in September 2013, ending a USAID source of funding for these CSOs.
      Without a financial transition plan or the development of a sustainable funding model,
      perhaps through the CSOs’ membership bases or other donors, the benefits of USAID’s
      investment in developing and supporting these organizations will be limited. In addition, the
      groups’ progress in organizing political debate on and advocacy around issues affecting
      youth, women, and minorities in Afghanistan could be reversed.

	 Political parties. USAID/Afghanistan supported the development of political parties in
   Afghanistan through the SIEP program and plans to provide support under the SPECS
   project. Under the SIEP program, activities focused on strengthening political parties’ ability
   to organize and compete in elections. The SPECS project was designed to help political
   entities develop electoral platforms and policy agendas that are responsive to citizen
   interests, mobilize supporters and members, and improve communication with and links to
   voters and constituents.

      Political parties in Afghanistan face several significant challenges that may limit their long-
      term viability. In the 1980s and 1990s, many political parties in Afghanistan were reportedly
      financed and armed by outside powers, and many Afghans still regard political parties
      unfavorably.

      A key assumption undergirding USAID/Afghanistan’s efforts to strengthen Afghanistan’s
      political party system was that the electoral law would be revised to support political party
      development. Despite efforts by political parties to reform Afghanistan’s voting system to
      make it more favorable, they must continue to compete for elected office under an SNTV
      framework. Under this system, political parties can do little to ensure a favorable outcome
      for all their candidates in a single constituency, so candidates have little incentive to join a
      party.

      Although Afghanistan’s constitution prohibits parties from forming on the basis of ethnicity,
      region, language, or religious group,53 the bulk of Afghanistan’s political parties are
      perceived as having ties to a single ethnic group or subgroup, many of which are
      geographically concentrated. Because of their limited geographical support base, only a
      small proportion of parties have succeeded in electing more than one representative from a
      single province under SNTV. Most parties have been able to secure parliamentary
      representation in only a single province, and even the most successful parties have limited
      geographical reach.

      Afghanistan’s political party law further complicates the work of parties. It requires them to
      maintain offices in 20 provinces. During fieldwork, a number of political parties reportedly

53
     Constitution of Afghanistan (2004), Article 35.



                                                                                                   28
     received letters from the Ministry of Justice indicating that they might lose their legal
     standing because they had failed to operate offices in the minimum number of provinces.

     Given these developments, future support for political party development in Afghanistan
     could have more limited return than other measures to strengthen elections and political
     processes. In the intense focus on preparing for the 2014 elections, USAID had not revised
     its assistance plans to adjust to these new conditions. With reduced levels of planned
     overall USAID electoral assistance than in previous years, refinements in how this
     assistance is allocated take on increased significance.

The sustainability of USAID-supported activities relating to the IEC, CSOs, and political parties
remains in question. The IEC faced challenges associated with funding and personnel. CSOs
receiving USAID assistance also faced financial limitations that could prevent them from
continuing to operate. Meanwhile, the context in which political parties operate in Afghanistan
could limit their long-term viability. Efforts by USAID to mitigate these challenges could improve
the future sustainability of its investments in Afghanistan’s elections and political processes.

     Recommendation 7. We recommend that USAID/Afghanistan work with other
     international donors to implement a transition plan for assistance under the Enhancing
     Legal and Electoral Capacity for Tomorrow Project – Phase II to the Independent
     Electoral Commission that addresses possible staffing and funding limitations to enable
     it to operate effectively beyond the current electoral cycle.

     Recommendation 8. We recommend that USAID/Afghanistan assess whether future
     efforts to promote the financial sustainability of the Afghan Women’s Organization for
     Supporting Democracy, the Toran Afghanistan Developmental and Educational
     Organization, and the Afghanistan Youth National Social Organization would support
     elections and political processes portfolio objectives and implement corresponding plans
     as appropriate.

     Recommendation 9. We recommend that USAID/Afghanistan reevaluate plans for
     support to political parties, adjust them as appropriate, and document any changes.

Monitoring and Reporting
Weaknesses Characterized Some
Aspects of Electoral Assistance
Effective monitoring is a requirement for maintaining acceptable levels of internal control, and
U.S. Government standards for internal control indicate that monitoring should occur during
normal operations.54 According to USAID guidance applicable to mission personnel,
performance monitoring is a continuous process of gathering data to determine “whether
desired results are being achieved and whether implementation is on track” for a project or
activity.55 USAID guidance indicates: “Site visits are an important part of effective award
management because they usually allow a more effective review of the project.”56

54
   Government Accountability Office, Standards for Internal Control in the Federal Government, November 

1999. 

55
   ADS 203.3.2, “Performance Monitoring.”

56
   ADS 303.3.18.b, “Site Visits.” 




                                                                                                    29
USAID award recipients have similar, corresponding responsibilities for monitoring and
reporting. Under Title 22 of the Code of Federal Regulations (CFR), recipients are responsible
for “monitoring each project, program, subaward, function or activity supported by the award.”57
USAID electoral assistance awards require program implementers to provide USAID with
regular reports on program progress and performance. To help ensure that USAID is in a
position to make program adjustments when needed, award recipients are to provide reports
within 30 days of the end of each quarter.58

Contrary to the guidance, monitoring and evaluation weaknesses and reporting delays
characterized some aspects of USAID/Afghanistan’s electoral assistance program.

IRI, one of three primary implementers of the SIEP program, did not meet U.S. Government,
USAID, or program-specific standards. The latter require partners to be vigilant to ensure that,
for all activities, “assistance is technically oriented, equally available to all and cannot be
construed as support for particular political choices or points of view.” The SIEP program
agreement also indicates that implementing partners are responsible for addressing corruption
considerations and antiextremism in their programming. Further, it directs implementing
partners to do sufficient monitoring and evaluation to assess program impact, the extent to
which objectives are being achieved, and the need for any program adjustment.

IRI did not provide direct monitoring for many of the activities it supported. Whereas the other
primary implementers under the SIEP program maintained several offices around the country,
IRI had a single office in Kabul. However, most IRI-funded activities, implemented by IRI
subrecipients, occurred elsewhere. In the first quarter of FY 2013, for example, 32 of 49 events
sponsored by IRI took place outside the capital. Attendance at these events accounted for more
than three-quarters (78 percent) of total attendance at IRI-sponsored activities.

Although most program activities occurred outside Kabul, IRI staff acknowledged that they had
never traveled outside the city to observe any program-supported activities. Rather, IRI relied on
documentation such as photos and sign-in sheets from subrecipients to confirm that events had
taken place as reported. One IRI representative described this as a cost-effective method for
monitoring and verifying events. One staff member reported that IRI supplemented
subrecipients’ event reports with monitoring by individuals in an informal network of IRI contacts
around the country. When pressed for information regarding monitoring activities by its network,
however, IRI was able to provide only two examples for the past year. In both cases, monitoring
focused on a single event held by a single subrecipient.

Although IRI had instituted measures for monitoring and verifying sponsored activities, these
measures provided little assurance that program activities were implemented as intended. With
the exception of the two events observed by informal monitors, IRI did not have independent
verification that events outside Kabul had taken place as described by local partners. Without
independent verification, IRI could not confirm that the events were technically oriented, made
available equally to eligible participants, or balanced or that they did not support particular
political choices or points of view. Nor could IRI confirm that the activities had not been
subjected to corrupt practices or that they did not promote extremist viewpoints. Moreover,

57
 22 CFR 226.51(a), “Monitoring and Reporting Program Performance.” 

58
  22 CFR 226.51(b),(d), “Monitoring and Reporting Program Performance,” and ADS 202.3.6.3, “Making

Necessary Adjustments.”




                                                                                               30
according to an IRI representative, it was hard to know whether IRI-sponsored events supported
program objectives or were delivered in line with best practices or IRI's model for the events.

The USAID mission could have taken steps to mitigate these monitoring deficiencies. However,
mission staff responsible for overseeing the program indicated they, too, had been unable to
attend IRI sessions outside of Kabul and could not provide evidence of the use of USAID onsite
monitors to cover IRI events in the provinces.

OIG also observed reporting problems in connection with the AERCA program. The program
was delayed in its quarterly performance reporting. Of greater concern was that it had provided
no performance data in its previous quarterly report. More than 6 months had elapsed since
USAID/Afghanistan received current performance data on this important electoral assistance
program. According to AERCA representatives, these reporting deficiencies resulted from the
departure of the program’s monitoring and evaluation expert.

AERCA program reporting practices were inconsistent with the program’s performance
management plan and could adversely affect USAID electoral assistance programming. The
performance management plan indicates that the program will collect and report on most
indicator results quarterly. Without current data on program performance, the mission may lack
information needed to assess the effectiveness of program activities and may not be able to
make fully informed decisions about current and future programming or program adjustments.

USAID-supported activities implemented by IRI were subject to monitoring weaknesses, and the
mission did not receive timely reporting on activities under the AERCA program. Because SIEP
program activities implemented by IRI have concluded, we are not making recommendations for
improvement. As the AERCA program is to continue to operate through the summer of 2014,
USAID should take steps to remedy reporting problems. To correct these problems, we make
the following recommendation.

   Recommendation 10. We recommend that USAID/Afghanistan work with Afghanistan
   Electoral Reform and Civil Advocacy Program officials to meet the reporting
   requirements specified in the program award and performance management plan.




                                                                                            31
EVALUATION OF MANAGEMENT
COMMENTS
The mission provided comments in response to the draft report. Those comments indicate that
the mission made management decisions on all ten recommendations. Based on additional
material and information provided by the mission, we have concluded that it took final action on
two of these recommendations. Our evaluation of management comments is provided below.
Comments are provided without attachments in Appendix II.

Recommendation 1. The mission agreed with the recommendation and took final action in
response to it. The mission noted that USAID was one of the key donors pioneering the design
of support to the complaints commission, but that final arrangements and agreements could not
be implemented without the commission’s request for support. After receiving the commission’s
request, USAID delivered assistance through two UNDP ELECT subawards to the United
Nations Office for Project Services and the International Foundation for Electoral Systems. We
acknowledge final action on this recommendation.

Recommendation 2. The mission agreed with the recommendation and made a management
decision on it. The mission indicated that its civic education programs target the entire country
but include special activities focused in Pashtun areas of southern and eastern Afghanistan. In
addition, the mission advised that it has mobilized the support of its Civil Society and Media
Team to reinforce civic education efforts in the lead up to the 2014 elections. Although the
mission provided general information on these activities, more detail will be required to confirm
that mission-supported activities have the recommended focus on increasing commitment to a
genuine electoral process with an emphasis on predominantly Pashtun areas. In
communications subsequent to the receipt of management comments, the mission established
a target date of May 2014 to close this recommendation.

Recommendation 3. The mission agreed with the recommendation and made a management
decision to implement support for both domestic and international election observers, in
coordination with the IEC, for the April 2014 elections. Under the SPECS project it plans to
support three Afghan groups that will observe the elections and two small-scale international
election observation missions. USAID reported that it is coordinating domestic observation
efforts with European donors through a monthly donor working group. The mission set a target
date of February 2014 to close this recommendation.

Recommendation 4. The mission agreed with the recommendation and made a management
decision to increase women’s participation as election workers, candidates, searchers, and
observers over past levels. Activities supported by USAID reportedly promote public outreach
and civic education among women and training for women to observe the voter registration
process. More information will be required, however, to determine whether the mission’s plans,
along with those of the Afghan government and other donors, will provide the levels of support
for recruitment and training of female poll workers, voter educators, observers, complaints
commission personnel, and candidate agents needed to meet targets. The mission provided a
target date of May 30, 2014 to close this recommendation.




                                                                                              32
Recommendation 5. The mission agreed with the recommendation and made a management
decision. The mission stated that it was working with USAID/Washington to identify rapid
response mechanisms to address Afghan stakeholders’ requests to close perceived gaps in
programming. Further, the mission stated that it had identified funds that could be reprogrammed
quickly to address critical, time-sensitive electoral needs. It is unclear, however, whether these
steps form part of a contingency plan. More documentation will be required, for example, to
determine whether the mission has plans for monitoring key electoral support activities and
whether current arrangements provide a reasonable basis for rapidly mobilizing support if needed.
The mission set a target date of March 15, 2014, to close this recommendation.

Recommendation 6. The mission agreed with the recommendation and made a management
decision. USAID reported that it had made some adjustments to allow political entities and
coalitions to be included in its programming after SNTV was retained as Afghanistan’s system
for electing representatives from multiseat constituencies. USAID reported that it will evaluate
the effectiveness of its political party assistance package after the 2014 election. The mission
established a target date of September 2014 to close this recommendation.

Recommendation 7. The mission agreed with the recommendation and made a management
decision. The mission reported that it had worked with other donors to develop outputs and
deliverables to shift assistance to the IEC toward sustainability. Planned project deliverables in
the revised ELECT II project document include the submission of a complete IEC budget to the
Afghan Parliament for FY 2015 and the phasing out of salary top-ups for IEC staff salaries. The
mission anticipates that transition planning will be completed by September 2014.

Recommendation 8. The mission agreed with the recommendation and made a management
decision to examine how it can strengthen its efforts to promote the financial sustainability of the
CSOs identified in the recommendation. The mission noted that it continues to provide support
to the Afghanistan Youth National Social Organization under the AERCA program, including in-
depth training to bring about administrative and financial sustainability. The mission expected to
complete planned corrective actions associated with this recommendation by September 2014.

Recommendation 9. The mission agreed with the recommendation and has reached a
management decision. It noted that USAID programming has been revised to adapt to the
SNTV system and established a target date of September 2014 for reevaluating its assistance
to strengthening political parties.

Recommendation 10. The mission agreed with the recommendation. According to the mission,
AERCA program officials have submitted regular weekly, monthly, and quarterly reports since
September 2013. Final action has been taken on this recommendation.




                                                                                                 33
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
OIG‘s Country Office in Afghanistan conducted this review in accordance with the Quality
Standards for Inspection and Evaluation, as issued in 2012 by the Council of the Inspectors
General on Integrity and Efficiency. The purpose of this review was to determine whether
USAID’s assistance strengthened the ability of Government of Afghanistan institutions, Afghan
civil society, and other organizations to enable credible, inclusive, and transparent presidential
and provincial council elections in 2014. In addition, the review was designed to determine
whether USAID/Afghanistan’s assistance contributed to Afghan solutions to the longer-term
issues identified in OIG’s previous audit of elections assistance.

This review covered the period June 2011 to June 2013. The USAID mission to Afghanistan
committed $241.8 million for election assistance from September 29, 2008, to December 31,
2013. As of June 30, 2013, the mission had obligated $217.1 million and disbursed
$208.4 million for these activities. This review covered about $169.6 million or 81 percent of that
disbursement.

In planning and performing the review, we identified and assessed the significant controls used
by USAID/Afghanistan to oversee and manage its elections assistance. This entailed reviewing
project commitment documents such as contracts, cooperative agreements and related
modifications and amendments, project implementation work plans, monitoring and evaluation
plans, implementing partners’ progress reports, and mission project pipeline analysis reports.
We also reviewed USAID/Afghanistan’s Federal Managers’ Financial Integrity Act report for
FY 2012, as well as prior audit reports to identify internal control and other issues that could be
relevant to the current review. With respect to our first review objective, we assessed the
controls that the mission had in place to ensure that project designs and implementation
contributed to the desired outcomes of transparency, inclusiveness, and credibility in the
upcoming Afghan elections, and that staff monitored and evaluated progress toward achieving
those outcomes. In connection with our second objective, we reviewed the mission’s system for
tracking audit recommendations and assessed its effectiveness in incorporating
recommendations from a prior OIG audit. We assessed the extent to which the mission had
integrated support for Afghan solutions to the issues identified into elections assistance
programs.

OIG performed its fieldwork in Kabul, Afghanistan, from April 1 to June 24, 2013. Work included
conducting site visits to the offices of the following implementing partners: Democracy
International, International Foundation for Electoral Systems, IRI, the National Democratic
Institute, and UNDP. We also visited the missions of other international donors that had
contributed to the ELECT II project, as well as the IEC and Government of Afghanistan
ministerial offices. The review team attended several events sponsored by implementing
partners, but the scope of the review was somewhat impaired in that the team could not attend
three events sponsored by USAID implementing partners or travel to project implementation
sites and other events outside of Kabul because of Embassy security concerns.




                                                                                                34
                                                                                       Appendix I


Methodology
To answer the review objectives, the review team reviewed documents related to the elections
assistance program maintained at USAID/Afghanistan and the offices of implementing partners
in Kabul. Documents included cooperative agreements, project work plans, progress reports,
and information regarding control systems. We corroborated related information through
interviews and site visits. We interviewed mission officials responsible for the electoral
assistance portfolio, U.S. Embassy officials, officials from other international donors
(representatives of the Governments of Australia, Norway, the United Kingdom, and the
European Union), and chiefs of party and other implementing partner personnel. We also
interviewed Afghan Government officials from ministries and electoral institutions—the Ministry
of Interior Affairs, the IEC, and the complaints commission. In addition, the review team met with
representatives of several Afghan CSOs.

The review team used information from the interviews, documentation reviews, and data
analyses to determine whether USAID’s assistance helped strengthen the ability of key
stakeholders to enable credible, inclusive, and transparent presidential and provincial council
elections in 2014. The review team also applied this approach in assessing whether the
mission’s assistance had contributed to addressing the longer-term issues identified in our
previous audit of USAID/Afghanistan’s elections assistance.

The review team compared reported results with supporting data maintained in Kabul by
implementing partners on a limited judgmental basis to verify that they were consistent. The
review team met with monitoring and evaluation personnel from implementing partners and
reviewed their processes for collecting indicator data, setting performance targets, calculating
results, maintaining related documentation, and verifying the accuracy of underlying reporting.
The review team performed walk-throughs of partners’ monitoring and evaluation systems and
spot-checked reported figures against source documentation. The results of our verification
efforts cannot be projected to all related reported data as they were not based on a statistical
sample. Although computer-processed data from the mission and its implementing partners
were not a significant focus for the review, we examined the authenticity, consistency, and
reasonableness of source information for the data and reports that we relied on in developing
conclusions.




                                                                                               35
                                                                               Appen
                                                                                   ndix II



MA
 ANAG
    GEMENT
         T COM
             MME
               ENTS
                  S


MEMO
   ORANDUM
         M	                                                   January 21, 2014

TO:	                James Ch
                           harlifue, OIG/Afghannistan Direector

FROM
   M:               William Hammink,, Mission Director /s/

SUBJE
    ECT:            Responsee to Draft Report on the Review w of
                    USAID/AAfghanistaan’s Electooral Assistaance Progrram (Reporrt
                    No. F-30
                           06-14-00X--P)

REFER
    RENCE:          JCharlifu
                            ue/WHamm
                                   mink memoo dated Deecember 299, 2013


Thank you for prooviding US SAID/Afgh  hanistan wiith the oppportunity too review annd
      d to the sub
respond          bject draft audit reporrt. Discusssed below are the Miission’s
commen nts on the recommen  ndations in the report.
GENER
    RAL COM
          MMENTS

We app preciate thee OIG efforrts to condduct the Auudit of the USAID Ellectoral
Assistannce Prograamming weell in advan   nce of Pressidential annd Provinccial Counciil
Electionns scheduleed for April 5, 2014. The overaall positivee findings validate
USAID’s program   mming apprroach, the progress thhat has beeen made inn building
Afghan capacity to administter election  ns and civill society’s increased ability to play
its advo
       ocacy role. As most of the OIG    G field workk was finallized betw  ween April and
June 20013, substan ntial progrress on manny of the audit findinngs has beeen made since
then. This progress relates to importan   nt aspects of the elecctoral proceess. In
additionn, the Goveernment off the Islamic Republiic of Afghaanistan’s (G     GIRoA)
actions in 2013 ad ddressed alll six areas identifiedd as a prioriity in the June 2011
electoraal audit con
                   nducted by y the OIG. More speccifically:

   1.	 The Electorral Law and Independdent Electooral Comm
                                                         mission (IE
                                                                   EC) and
       In
        ndependennt Electorall Complain
                                      nts Commiission (IEC
                                                         CC) Structuure Law,
       ap
        pproved byy the Natio
                            onal Assem
                                     mbly and enndorsed byy the President in Jully
       2013 implem mented a new legal frameworkk.
                                                                                         36
                                                                         Appendix II



   2. This new legal framework established the IEC and IECC as two permanent
      and independent institutions.

   3. This framework made the appointment procedure for new IEC and IECC
      Commissioners more transparent.

   4. After two years of robust debate among different stakeholders about the
      most appropriate voting system, members of the National Assembly
      determined Afghanistan would not change from the Single Non-Transferable
      Vote (SNTV) to a system more conducive to the development of political
      parties. Discussions over this time period did make a large number of
      different stakeholders aware of other options available to them. This
      awareness will benefit the National Assembly if it decides to reconsider the
      voting system in the future.

   5. In 2013, the Council of Ministers (CoM) took a more active approach to
      deciding on the future of voter registry (VR). For the first time ever, the
      CoM decided not to allow the IEC to proceed with another VR exercise
      similar to marginally successful past efforts with little guarantee of better
      outcome. Today, the Afghan government takes full ownership of this issue
      and is making slow but steady progress toward putting in place arrangements
      for the Electronic National Identification Card – eNID, which the Afghan
      Government perceives as a necessary precursor to updating the VR and a
      mid- to long-term solution for a viable VR.

   6. Through the United Nations Development Program Enhancing Legal and
      Electoral Capacity for Tomorrow Phase II (UNDP ELECT II) mechanism,
      efforts are underway to: a) inform GIRoA about the real cost of election; b)
      fund the elections process, keeping the IEC and IECC operational; and c)
      making sure the IEC and IECC are integrated in the overall structure of the
      Afghan government while preserving their independence.

Finally, for the first time, the international community, USAID included, is
supporting 2014 elections based on plans developed by the IEC, with UNDP
ELECT technical support. This development is a significant change in the way
election support is being delivered in Afghanistan. This shift towards greater
Afghan ownership and accountability became evident in the second part of 2013,
and, to a large extent, can be attributed to the technical assistance USAID has
provided over the past five years.

                                                                                  37
                                                                        Appendix II




COMMENTS ON OIG’S RECOMMENDATIONS

Recommendation 1. We recommend USAID/Afghanistan work with international
donors to prompt the advertisement and letting of a subcontract under the
Enhancing Legal and Electoral Capacity for Tomorrow Phase II Project to
address Independent Electoral Complaints Commission support requirements in a
way that mitigates potential conflicts of interest.

USAID Comments: The Mission concurs with Recommendation 1.

Actions Taken/Planned:
Support to the IECC, as with support to the IEC, is provided with the
understanding that conducting elections is an Afghan-led process. While USAID
was one of the key donors pioneering the design of support to the IECC, final
arrangements and agreements could not be implemented without the IECC’s
request for support.

When the new UNDP ELECT Project Document was redesigned in June 2013, the
IECC legal framework had not been agreed upon by the Afghan government.
Donors, in partnership with the UNDP country office, had to develop a plan of
support that would most likely be required to stand up IECC offices. This initial
plan was based largely on the lessons learned from the 2009 and 2010 elections.
Fortunately, the donor plan was later validated by the IECC when the Afghan
government put into place the new electoral framework.

Currently, USAID is one of the largest donors supporting the IECC. To prevent
appearances of a conflict of interest between donor-funded technical support
provided to the IEC and that provided to the IECC, assistance to the latter is
provided through a different mechanism. More specifically, the assistance is
delivered through two UNDP ELECT sub-awards to the United Nations Office for
Project Services (UNOPS) and the International Foundation for Electoral Systems
(IFES). The agreement between UNDP and UNOPS was signed in October 2013,
while the agreement between UNDP and IFES was finalized in November.

Closure Request:




                                                                                38
                                                                          Appendix II


Based on the above, we request OIG concurrence to close Recommendation 1. See
approved UNDP ELECT Project Document, dated September 2013 (Attachment
1).

Recommendation 2. We recommend that USAID/Afghanistan coordinate with the
Government of Afghanistan and the international donor community to implement a
plan for supporting broad-based civic outreach and education with a focus on
increasing commitment to a genuine electoral process, particularly in
predominantly Pashtun areas.

USAID Comments: The Mission concurs with Recommendation 2.

Actions Taken/Planned:
USAID, in partnership with other donor countries, has ongoing programming
focused on increasing a) public awareness, b) civic education, and c) voter
education in the lead up to 2014 elections.

Voter education efforts are led and coordinated by the IEC, supported by UNDP
ELECT. Public awareness and civic education is led primarily though USAID
implementing partners from Afghan civil society. USAID support to civic
education is part of the multi-year programing led by USAID-funded programs
Supporting Increased Electoral Participation (SIEP), Supporting Political Entities
and Civil Society (SPECS) and Afghanistan Electoral Reform and Civic Advocacy
(AERCA). While these programs target the entire country, they include special
activities focused in Pashtun areas of southern and eastern Afghanistan, where
voter participation has historically been more challenging.

To further strengthen civic-education efforts prior to the 2014 elections, USAID
has mobilized support of its Civil Society and Media Team. USAID assistance in
this sector, as with assistance provided by other donors, is closely coordinating
with the IEC departments for Public Outreach and External Relations.

Finally, all USAID civic and voter-education activities are closely coordinated
with those implemented by the U.S. Embassy Public Affairs Section.

Closure Request:
Based on the above, we request OIG concurrence to close Recommendation 2.
See approved UNDP ELECT Project Document, dated September 2013
(Attachment 1).

                                                                                    39
                                                                        Appendix II



Recommendation 3. We recommend that USAID/Afghanistan work with
international donors to finalize and implement plans for supporting independent
domestic observer organizations.

USAID Comments: The Mission concurs with Recommendation 3.

Actions Taken/Planned:
USAID/Afghanistan is providing both domestic and international election
observation support, which is being closely coordinated with the IEC through
regular meetings.

Through the Supporting Political Entities and Civil Society (SPECS) program
being implemented by the National Democratic Institute (NDI), USAID is
supporting the following three Afghan domestic election observation groups:
Afghanistan Youth National and Social Organization (AYNSO), Transparent
Election Foundation of Afghanistan (TEFA), and Afghanistan National
Participation Organization (ANPO). Between 2,200 and 2,500 domestic observers
will be trained to be deployed nationally by these organizations on Election Day.
In addition, USAID is convening a monthly donor working group to coordinate its
domestic observation efforts with those of the Europeans, who are funding the Free
and Fair Election Foundation of Afghanistan (FEFA). The combined efforts will
allow for roughly 12,000 domestic observers, covering 70% of the country, to
provide oversight of the electoral process.

In addition, USAID is planning to support two small-scale international election-
observation missions. The goal of each mission will be to enhance and amplify the
work of domestic election monitors, and to provide another layer of oversight of
the electoral process. These two missions will coordinate very closely with the
European Union (EU) and Organization for Security and Co-operation in Europe
(OSCE), which also plan to field election-observation missions, and will maintain
a light footprint throughout the electoral process (the OSCE Mission will also be
partially funded by USAID). By the end of January, USAID will be able to
provide information on the exact numbers of international observers to be
deployed.

USAID support to domestic observers is implemented under SIEP programming,
and support to international observer groups is currently under procurement.


                                                                                  40
                                                                             Appendix II


Target Closure Date: February 2014

Recommendation 4. We recommend that USAID/Afghanistan work with the
Government of Afghanistan and other international donors to identify and help
meet targets for women in key electoral roles, and implement plans for the
recruitment and training of needed female poll workers, voter educators,
observers, and complaints commission personnel, as well as the training of female
candidate agents.

USAID Comments: The Mission concurs with Recommendation 4.

Actions Taken/Planned:
While recognizing elections alone cannot be used as the only means to advocate
for greater gender equality across Afghan society, the U.S. Mission sees the 2014
and 2015 elections as windows of opportunity to promote wider women’s
participation in the electoral process as voters, election administrators, candidates
and observers.

Our goal is to increase women’s participation as election workers, candidates,
searchers, and observers over past levels. So far, the only number that can be
evaluated is that the percentage of provincial council candidates who are women
increased from 10 percent in 2009 to 11 percent this year. Additional comparative
figures measuring changes in female engagement between the 2009 and 2014
elections that are also being tracked include voter registration, observers, and
numbers of IEC and IECC female staff. As registration and recruitment efforts are
still underway in all of these areas, final comparative figures are not yet available.

To highlight and increase female participation in the electoral process, the IEC has
created a dedicated Gender Unit to convene coordination meetings amongst key
ministries, donors, Civil Society Organizations (CSOs), news-media organizations
and women's groups. With the support of the international community, the IEC has
led a robust public outreach on this topic for specific progress made by the IEC in
terms of gender (Attachment 2).

All USAID current elections programing has a strong component supporting
women’s participation in the electoral process.

With SPECS, for example, NDI provides campaign training to women political
activists and candidate-orientation training to female provincial council (PC)

                                                                                     41
                                                                           Appendix II


candidates, with a target of training all 308 women provincial council candidates.
Topics covered in campaign training include how to increase the engagement of
political party trainers in leadership and decision and policy making. The aim of
this orientation is to help PC candidates learn about the electoral legal framework,
candidates’ rights and responsibilities, electoral procedures, rules and regulations
and complaints mechanisms, and ways to counter electoral fraud in the 2014
presidential and PC elections. NDI also operates women’s campaign schools and
policy advocacy group meetings throughout the country for female PC candidates.
Topics covered in the campaign school include: electoral framework, roles of
elected officials, campaign planning, message development, public speaking and
community outreach. The aim of the training is to assist women PC members to
learn to gain constituents’ support through effective campaigning.

IFES, through a subcontract from NDI, is emphasizing the importance of female
inclusion with civil-society groups and will equip these organizations with tools to
develop and implement inclusive outreach and advocacy plans.

In addition, through the AERCA project, USAID is funding several local CSOs,
including the Training Human Rights Association for Afghan Women, Afghan
Women Services and Education Organization, and Empowerment Center for
Women, to increase public outreach and civic education among women to
encourage greater female voter turnout in the elections. The Afghan Civil Society
Electoral Network (ACSEN), supported by USAID through AERCA, has also
organized a sub-committee of more than a dozen CSOs focused on increasing
women’s participation in the upcoming elections. Also, through AERCA, USAID
provided a sub-grant to train 150 women to observe the voter registration process
in Balkh Province.

Closure Request:
Based on the above, we request concurrence to close Recommendation 4.
See approved UNDP ELECT Project Document, dated September 2013
(Attachment 1).

Recommendation 5. We recommend that USAID/Afghanistan develop a
contingency plan to address critical, time-sensitive electoral support needs that
may emerge during the current electoral cycle in consultation with the Government
of Afghanistan and the international donor community.

USAID Comments: The Mission concurs with Recommendation 5.


                                                                                   42
                                                                           Appendix II




Actions Taken/Planned:
While the 2014 elections process is Afghan-driven, with all requests for support
coming from Afghan stakeholders, USAID/Afghanistan’s Office of Democracy
and Governance (ODG) is already working with USAID/Afghanistan’s Office of
Acquisition and Assistance (OAA) and Office of Program and Project
Development (OPPD), as well as USAID/Washington to anticipate and identify
rapid-response mechanisms that might be used in the event of a perceived gap in
programming, and based on the request(s) received by the key stakeholders. Funds
have been identified that can quickly be reprogrammed to address critical, time-
sensitive electoral needs.

Closure Request:
Based on the above, we request concurrence to close Recommendation 5.

Recommendation 6. We recommend that USAID/Afghanistan reevaluate and
document any adjustments to its elections and political processes programming in
light of Afghanistan’s continuing use of the single, nontransferable voting system.

USAID Comments: The Mission concurs with Recommendation 6.

Actions Taken/Planned:
USAID agrees with the IG that supporting Afghan political-party strengthening
might not have the same level of return as it would under a different voting system.
Yet, as supporting the fledgling democracy is a USG top priority for Afghanistan,
USAID chose to continue such assistance. Despite the obstacles SNTV poses,
leaving parties without any technical assistance could hamper their long-term
capacity. The USAID program was designed when the voting system was being
debated by the Afghans. Subsequently, when SNTV was not changed to a system
more conducive to political-party development, USAID proceeded with some
adjustments to allow political entities and coalitions to be included in the program.
Following the 2014 elections, as part of the normal program evaluation cycle, this
issue can be reassessed. The NDI mid-term evaluation is scheduled to occur on or
about January 2015.

USAID programming has been designed to adapt to the SNTV system and to
strengthen political-party development. NDI, the USAID main implementing
partner for this purpose, is deploying techniques it has developed in other countries
with the SNTV system.

                                                                                   43
                                                                           Appendix II



In the Campaign Training-of-Trainers (TOT) (and to a lesser extent the strategy
workshops) NDI has adjusted its approach to political-party development, in light
of the SNTV system, to help candidates overcome the inherent challenges in the
current system.

In the SNTV system, calculating vote goals can be challenging. Within this
context, in its trainings, NDI imparts possible ways to calculate vote goals based
on experience in other Asian countries, which used SNTV in past parliamentary
elections. NDI trains parties on determining how many candidates a district can
support, a key planning strategy in the SNTV system.

For example, if parties nominate too many candidates, they will dilute each other's
votes, and parties with less support will leapfrog over them. Similarly, if parties
nominate too few candidates, they will give up seats they might have won. Thus, to
adjust to the SNTV system, NDI places a heavy emphasis on research and voter-ID
tactics to assist parties in accurately predicting how many candidates their
provinces can support.

The SNTV system and political-party law make organization extremely important,
which is emphasized in NDI programming. In the current system, political parties
need to develop strong local-party organizations to compete effectively with a huge
number of independents in a system where only several thousand votes might be
needed to win a seat. NDI conducts training to support strong local-party
organizations, helping parties more effectively conduct voter targeting, persuasion
and get-out-the-vote activities.

USAID will re-evaluate its political party assistance package, post-2014 elections,
in order to assess its effectiveness, in light of lessons learned during the pre-
election phase of its programming.

Target Closure Date: September 2014

Recommendation 7. We recommend that USAID/Afghanistan work with other
international donors to implement a transition plan for assistance under the
Enhancing Legal and Electoral Capacity for Tomorrow – Phase II Project to the
Independent Electoral Commission that addresses possible staffing and funding
limitations to enable it to operate effectively beyond the current electoral cycle.

USAID Comments: The Mission concurs with Recommendation 7.

                                                                                      44
                                                                            Appendix II




Actions Taken/Planned:
As part of the development of the ELECT Project Document, USAID in
coordination with other donors developed outputs and deliverables to make
support to the IEC more sustainable. One target was IEC submission of a
completed budget to the Afghan Parliament for FY 2015. Another target was
the phase out of salary top-ups that raised staff salaries to unsustainable levels.
Finally, the Annual Plan for 2015 will include a Transition Plan as one of the
key deliverables. Discussion of a Transition Plan is on-going but donors agree
special emphasis will be put on the IEC, IECC and Media Commission after the
2014 political transition.

The UNDP ELECT Project Document is expected to be amended with lessons
learned from 2014 elections in the 3rd quarter of the calendar year 2014. This
activity will be done in partnership with other donor countries.

Target Closure Date: September 2014

Recommendation 8. We recommend that USAID/Afghanistan assess whether
future efforts to promote the financial sustainability of the Afghan Women’s
Organization for Supporting Democracy, the Toran Afghanistan
Developmental and Educational Organization, and the Afghanistan Youth
National Social Organization would support elections and political processes
portfolio objectives and implement corresponding plans as appropriate.

USAID Comments: The Mission concurs with Recommendation 8.

Actions Taken/Planned:
USAID will examine how it can strengthen its efforts to promote financial
sustainability of the organizations mentioned as well as of all Afghan civil society
organizations it supports. The Afghanistan Youth National Social Organization,
for example, is now part of AERCA’s ACSEN network and, as a member, receives
in-depth training around issues of administrative and financial sustainability.

Target Closure Date: September 2014

Recommendation 9. We recommend that USAID/Afghanistan reevaluate plans
for support to political parties, adjust them as appropriate, and document any
changes.

                                                                                      45
                                                                           Appendix II



USAID Comments: The Mission concurs with Recommendation 9.

Actions Taken/Planned:
As stated in our response to Recommendation 6, USAID agrees with the OIG that
supporting Afghan political-party strengthening might not have the same level of
return as it would under a different voting system. Yet, as supporting this fledgling
democracy is a USG top priority for Afghanistan, USAID chose to continue such
assistance. Despite the obstacles SNTV poses, leaving parties without any
assistance could hamper their long-term capacity. The USAID program was
designed when the voting system was being debated by the Afghans.
Subsequently, when SNTV was not changed to a system more conducive to
political party development, USAID proceeded with the necessary adjustments
outlined below. USAID does not support particular candidates. USAID supports
the process. Hence, USAID broadened its support to include political entities and
coalitions, to adjust to Afghanistan’s evolving political climate. Following the
2014 elections, as part of the normal program evaluation cycle, this issue can be
reassessed. The NDI mid-term evaluation is scheduled to occur on or about
January 2015.

USAID programming has been devised to adapt to the SNTV system, to strengthen
political-party development. NDI, the USAID main implementing partner for this
purpose, is deploying techniques it has developed in other countries with the
SNTV system.

In the Campaign ToT (and to a lesser extent the strategy workshops), NDI has
adjusted its approach to political-party development, in light of the SNTV system,
to help candidates overcome the inherent challenges in the current system.

In the SNTV system, calculating vote goals can be challenging. Within this
context, in its trainings NDI imparts possible ways to calculate vote goals based on
the experience of other Asian countries which used SNTV in past parliamentary
elections. In this context, NDI trains parties to determine how many candidates a
district can support, a key planning strategy in the SNTV system.

For example, if parties nominate too many candidates, they will dilute each other's
votes, and parties with less support will leapfrog over them. Similarly, if parties
nominate too few candidates, they will give up seats they could have won. Thus, to
adjust to the SNTV system, NDI places a heavy emphasis on research and voter ID

                                                                                   46
                                                                           Appendix II


tactics to assist parties in accurately predicting how many candidates their
provinces can support.

The SNTV system and political-party law make organization extremely important,
which is emphasized in NDI programming. In the current system, political parties
need to develop strong local- party organizations to compete effectively with a
huge number of independents in a system where only several thousand votes might
be needed to win a seat. NDI conducts training to support strong local-party
organizations, helping parties more effectively conduct voter targeting, persuasion
and get-out-the-vote activities.

USAID will re-evaluate its political party assistance package, post-2014 elections,
in order to assess its effectiveness, in light of lessons learned during the pre-
election phase of its programming.

Target Closure Date: September 2014

Recommendation 10. We recommend that USAID/Afghanistan work with
Afghanistan Electoral Reform and Civil Advocacy program officials to
meet the reporting requirements specified in the program award and
performance management plan.

USAID Comments: The Mission concurs with Recommendation 10.

Actions Taken/Planned:
Since September 2013, AERCA has submitted weekly, monthly, and quarterly
reports on-time. The Agreement Officer’s Representative (AOR) works closely
with the AERCA Chief of Party to ensure that reporting requirements as specified
in the program award and performance management plan are now met.

Closure Request:
Based on the above, we request concurrence to close Recommendation 10.

Attachment:
   1. UNDP ELECT Project Document
   2. Gender mapping




                                                                                   47
                                                                        Appendix III



ABBREVIATIONS 

 ADS     Automated Directives System
 AERCA   Afghanistan Electoral Reform and Civil Advocacy
 CFR     Code of Federal Regulations
 CSO     civil society organizations
 ELECT   Enhancing Legal and Electoral Capacity for Tomorrow
 FY      fiscal year
 IEC     Independent Election Commission
 IRI     International Republican Institute
 OIG     Office of Inspector General
 SIEP    Support for Increased Electoral Participation in Afghanistan
 SNTV    single, nontransferable vote
 SPECS   Strengthening Political Entities and Civil Society
 STEP    Support to the Electoral Process
 UN      United Nations
 UNDP    United Nations Development Programme




                                                                                 48
